<html>
<title> - PROMOTING COLLEGE ACCESS AND SUCCESS FOR STUDENTS WITH DISABILITIES</title>
<body><pre>[Senate Hearing 113-721]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-721

  PROMOTING COLLEGE ACCESS AND SUCCESS FOR STUDENTS WITH DISABILITIES

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING PROMOTING COLLEGE ACCESS AND SUCCESS FOR STUDENTS WITH 
                              DISABILITIES

                               __________

                           FEBRUARY 27, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-033 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland           LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont            RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania      JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina            RAND PAUL, Kentucky
AL FRANKEN, Minnesota                   ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado             PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island        LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin                MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut      TIM SCOTT, South Carolina   
ELIZABETH WARREN, Massachusetts          

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

  















                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, FEBRUARY 27, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.     4
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    21
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    27
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    32
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    36

                               Witnesses

Emery-Arras, Melissa, Director of Education, Workforce, and 
  Income Security Issues, U.S. Accountability Office, Boston, MA.     5
    Prepared statement...........................................     6
Ostrow, Laysha, MPP, Ph.D. Candidate, Student, Johns Hopkins 
  Bloomberg School of Public Health, Baltimore, MD...............     7
    Prepared statement...........................................     8
Fink, Dana, Assistant Project Coordinator, Institute for 
  Educational Leadership, Washington, DC.........................     9
    Prepared statement...........................................    10
Farrior, Will, Student, College of Charleston, Charleston, SC....    11
    Prepared statement...........................................    12
Getzel, Elizabeth Evans, Project Director, ACE-IT in College, 
  Virginia Commonwealth University, Richmond, VA.................    14
    Prepared statement...........................................    15
Myers, Katherine, Associate Director, Office of Disability 
  Services, Wright State University, Dayton, OH..................    16
    Prepared statement...........................................    17

                                 (iii)

  

 
  PROMOTING COLLEGE ACCESS AND SUCCESS FOR STUDENTS WITH DISABILITIES

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SH-216, Hart Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Murray, Casey, Franken, Baldwin, 
Murphy, Warren, Alexander, and Scott.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    Today's roundtable discussion will focus on how students 
with disabilities are accessing and succeeding in post-
secondary education. This roundtable marks our sixth in a 
series to examine issues we plan to address in the upcoming 
reauthorization of the Higher Education Act, and our review of 
this topic could not come at a better time.
    According to just released research by the Pew Research 
Center, the value of a college education has never been 
greater. No matter how you measure it, young college graduates 
do significantly better than their less-educated peers. College 
graduates earn higher salaries. They are more likely to work 
full-time, and they are less likely to be unemployed than their 
peers who do not attend college.
    Today, the income disparity between college graduates and 
those with a high school diploma is wider than at any time 
since this comparison was first tracked in 1965.
    So as this committee examines how to improve educational 
opportunities and outcomes for all Americans, we must remember 
to include our fellow citizens with disabilities to ensure they 
have access to post-secondary education and to succeed once 
enrolled in those programs. To provide those opportunities, we 
need to understand the barriers students with disabilities 
face, and the services and supports that facilitate their 
success.
    Post-Secondary education is a primary goal for more than 80 
percent of high school students with disabilities. Sixty 
percent of young adults with disabilities enroll in post-
secondary education, compared to 67 percent of young adults 
without a disability; so it is very close. Among those who 
enroll in college, 41 percent graduate compared with 52 percent 
of those without disabilities; so the gap widens. We must 
better understand why students with disabilities are more 
likely to dropout and what will attract them to both enroll and 
to keep in school so that they are successful.
    There is a great deal of diversity in the population of 
college-age students with disabilities today, and the 
accommodations that are required to meet their needs are just 
as diverse.
    A blind student may need printed materials in different 
formats. A deaf student may need interpreters or captioning 
services. A student with physical disabilities must be able to 
navigate the campus. Students with psychiatric disabilities may 
need confidential counseling and flexible timelines for 
coursework completion to accommodate the often episodic nature 
of their disabilities. And students with intellectual 
disabilities need inclusive, on-campus college programs to 
facilitate their continued learning, and their successful 
transition from high school to post-secondary education. Once 
students with disabilities arrive on campus, we need to ensure 
they have the supports and services necessary.
    So what should be the Federal role in promoting success of 
college students with disabilities? Our panel of experts, who 
have joined us today, will shed some light on that question. We 
will hear from those closest to this question, program 
administrators and students themselves. The students will share 
some of the barriers they have faced, successes they have 
achieved, and the supports and services that may have helped 
them along the way. And, of course, I hope that all of you here 
will provide us with suggestions. I read your testimonies last 
night and I see that you do have some.
    The young people with disabilities who now are attending 
post-secondary programs are part of what I keep calling, ``The 
ADA Generation.'' They have grown up with the Americans with 
Disabilities Act, which promises them the kind of access and 
opportunity denied to people with disabilities in the past. 
They have been educated alongside their nondisabled peers. They 
know that post-secondary education can open doors for them, and 
they want their fair shot at the American dream. So I am eager 
to hear from each of you about your experiences and what we 
need to do in the Higher Education Act to support the success 
of students with disabilities.
    Our goal is to have an open discussion here; a roundtable 
discussion, rather than a formal, on-the-dais kind of thing. So 
we will have a good, open discussion on this.
    Now I invite Senator Alexander for his opening statement.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Senator Harkin has been, and is, the leading member of the 
U.S. Senate in his concern for Americans with disabilities, and 
so that makes this hearing especially important, not just to 
him, but to all of us who are here.
    We welcome you here. He and I were talking a little 
earlier. We looked at the format here and we were trying to 
figure out how we could get closer. We are not trying to 
separate ourselves from you. We would like to actually be 
closer, but we could not figure out a logical way to do it, but 
we would like to have more of an informal atmosphere to this. 
We do not want it to be a hearing; we want it to be more of a 
discussion.
    About 10 percent of our college students have a disability. 
That is a lot of Americans; that would mean, maybe 40,000 
students among Tennessee's 400,000 college students. So we are 
talking about the concerns of lots of students.
    A great many of our higher education institutions are 
already distinguishing themselves as places that are attractive 
for students with one kind of disability or another.
    I know that when I was president of the University of 
Tennessee, I heard regularly from parents and students about 
the program at UT Chattanooga, which is called MoSAIC and it 
supports students with autism, and it includes credit bearing 
courses, academic life coaching, peer and faculty mentoring.
    But word travels among families and students who are 
dealing with a particular disability and they search out those 
campuses that are friendly and inviting, which is one of the 
great advantages of our system of higher education because of 
Government support. About half our students have a grant or a 
loan from the Federal Government to help them go to college 
that follows the student to the institution of their choice. So 
a student with a disability can select a college campus that is 
a friendly environment.
    Vanderbilt has a 2-year nonresidential certificate program 
for students with intellectual and developmental disabilities 
called Next Steps, and that includes individualized programs 
for social skills, physical fitness, and job skills.
    Senator Harkin has proposed some changes in the Vocational 
Rehabilitation Act to make the process of going from high 
school to college easier and that, we hope, finds its way into 
law through the Workforce Investment Act. So what we are doing 
here today are hearings about the reauthorization of the Higher 
Education Act, and we want to make sure that as we do that, we 
are sensitive to the needs of students with disabilities. We 
look forward to hearing your advice about how best to do that.
    Thank you.
    The Chairman. Thank you, Senator Alexander.
    Now, let me introduce our panelists who are here. I will go 
down the line and then we will ask each of you to give a brief 
statement.
    First we have Melissa Emrey-Arras, Director of Education 
issues in the Government Accountability Office, the GAO, Office 
of Education, Workforce, and Income Security team. She has led 
national studies on education issues ranging from student loans 
to veterans' education benefits. Prior to coming to GAO in 
2001, she worked at a private sector consulting company and led 
projects on Medicaid and child welfare issues for State and 
local clients.
    Our second witness is from the State of Maryland, and that 
would be Laysha Ostrow. Ms. Ostrow is a Ph.D. candidate at the 
Johns Hopkins School of Public Health and co-executive director 
of the Lived Experience Research Network. Ms. Ostrow's 
research, advocacy, and writing are focused on improving mental 
health and social services particularly addressing innovative 
practices in financing models and promoting the voice of 
multiple stakeholders. She will share with us her experiences 
with both the psychiatric system and the Social Security 
disability system as they interact with higher education for 
someone with a psychiatric disability.
    Then we will hear from Ms. Fink. Dana Fink is an assistant 
project coordinator at the Institute for Educational Leadership 
Center for Workforce Development. In this role, she supports 
the National Collaborative on Workforce and Disability for 
Youth and D.C. Advocacy Partners. A graduate of the University 
of Illinois and while there, I am told, she was a two-time 
wheelchair basketball national champion--well, all right--and 
an Academic All-American. Ms. Fink also served as a summer 
intern on the HELP committee and we welcome you back here. 
Maybe you did not think you would come back as a witness, but 
nice to have you back.
    Our next person is from South Carolina, and I am going to 
turn to Senator Scott for the purpose of introduction.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    I am very pleased to introduce William Farrior as one of 
our witnesses today. Mr. Farrior is 26 years old from Ravenel, 
SC in the Low country, and he has worked very hard to now be a 
senior at the College of Charleston. I am looking forward to 
being your graduation speaker this year. I am sorry for you, by 
the way.
    [Laughter.]
    William is an inspiring example of the great things that 
can happen when each and every student is given the chance to 
realize his or her full potential.
    William was diagnosed with Asperger's when he was in the 
eighth grade, which has created many challenges for him. After 
he graduated from high school in 2006, he had a tough time at a 
community college due to his disability and to death in his 
family.
    When school did not work out, William found himself 
drifting between entry level jobs. Thankfully, William was able 
to enroll into the REACH program at the College of Charleston 
which has now opened up a whole new world of possibilities and 
opportunities for an amazing future that you will have.
    William has now had the opportunity to intern at Blackbaud, 
which is a fantastic company in the Low country of South 
Carolina, at the YMCA, the YWCA, and in public relations at the 
Medical University of South Carolina, just to name a few, which 
has done amazing things in helping him to hone his skills to 
prepare him for a career in his chosen field of communications.
    Mr. Farrior, his testimony today, will show us all the 
importance of giving every student, every young person a chance 
to reach their full and highest potential, and to help us 
engage in a broader conversation about ensuring access as we 
move forward on a reauthorization of the Higher Education Act. 
William, thank you for being here, sir.
    Yes, sir.
    The Chairman. Thank you very much, Senator Scott, and we 
welcome Mr. Farrior.
    Next, we will hear from Ms. Elizabeth Getzel, the director 
of the ``ACE-IT in College'' program at Virginia Commonwealth 
University, another one of the TPSID programs that we just 
heard about at the College of Charleston. TPSID stands for 
Transition and Post-Secondary Programs for Students with 
Intellectual Disabilities. It is much easier to say as TPSID. 
TPSID was part of the reauthorization of HEA in 2008. With my 
other hat, as the chair of the Appropriations subcommittee, we 
have been funding TPSID for the past 5 years. I am anxious to 
hear about both of the TPSID programs.
    Ms. Getzel's research includes effective strategies for the 
inclusion of college students with disabilities, career 
planning, and preparation. She has authored or co-authored 
numerous journals articles and co-edited a book entitled 
``Going to College: Expanding Opportunities for People with 
Disabilities.''
    Our final witness is Katherine Myers, associate director of 
the Office of Disability Services at Wright State University. I 
read a lot about Wright State last evening. Wright State 
University has a long history of providing high quality 
services and supports to its students with disabilities. During 
her 19 years at Wright State, she has been responsible for 
running the technology center, which provides textbooks and 
course materials in alternative formats, as well as a variety 
of other computer-related adaptations. Ms. Myers has also 
worked closely with students who use communication devices.
    We have a great panel of experts and people who have 
experience with our topic. What I would like to do is ask you 
to make short statements. I have all your statements. They will 
be made a part of the record in their entirety. Can you give us 
a brief statement about what you think is the most important 
thing that you want us to know, and then we will just start 
discussing things. OK?
    Ms. Emrey-Arras, go ahead.

   STATEMENT OF MELISSA EMREY-ARRAS, DIRECTOR OF EDUCATION, 
            WORKFORCE, AND INCOME SECURITY ISSUES, 
       U.S. GOVERNMENT ACCOUNTABILITY OFFICE, BOSTON, MA

    Ms. Emrey-Arras. Thank you, Mr. Chairman, Ranking Member 
Alexander, and members of the committee for inviting me to 
participate in today's roundtable discussion.
    My remarks today will summarize GAO's prior work on this 
important topic.
    As Senator Alexander mentioned, national data shows that 
just over 10 percent of post-secondary students have 
disabilities. Common disabilities include mental health 
conditions, attention deficit disorders, and mobility 
impairments.
    Based on our interviews with students, parents, and school 
officials, the transition from high school to college can be a 
challenging one for those with disabilities. Many students with 
disabilities are accustomed to certain accommodations while 
they are in high school. As Senator Harkin mentioned, there are 
various things that can be done to assist with the learning 
process.
    Oftentimes, students go to campus for the first time 
expecting those accommodations that they were used to, to 
already be in place because that is what they have had all 
along, and they are quite often surprised when those are not 
already there for them. While colleges are, in fact, 
responsible for providing reasonable accommodations for 
students, students really do need to initiate the process when 
it begins at the college level. And to do that, they need to 
first self-identify as having a disability, and then obtain 
updated evaluations to support their request for a disability 
accommodation, and then officially make that request.
    Some students may choose not to disclose their disabilities 
initially. They may do so perhaps later on in the semester 
after they have fallen behind, which can create issues for 
them. Others may have trouble obtaining updated evaluations. It 
can often be costly to obtain updated evaluations, and there 
can also be long waits for appointments. So those are 
additional barriers that students face in transitioning to 
college and receiving those really critical accommodations for 
their learning.
    In our work, we did find that schools were reaching out to 
students and their parents to help them learn about their 
rights and responsibilities regarding the accommodation 
process. And we also did find cases of schools actively helping 
students obtain lower cost evaluations. Some of them were using 
the resources on campus in terms of their mental health 
facilities, their departments of psychology and the like, to 
provide those kinds of evaluations on campus for students to 
assist them in obtaining the needed documentation to get their 
requests in order.
    Thank you, Mr. Chairman, and Senator Alexander, and members 
of the committee. This concludes my formal remarks. I am 
looking forward to today's discussion.
    [The prepared statement of Ms. Emrey-Arras follows:]
               Prepared Statement of Melissa Emrey-Arras
    Thank you Mr. Chairman, Ranking Member Alexander, and members of 
the committee, for inviting me to participate in this roundtable 
discussion on promoting college access and success for students with 
disabilities. My remarks today will summarize GAO's prior work on these 
students as they navigate the transition to post-secondary education. 
The work upon which this statement is based was conducted in accordance 
with generally accepted government auditing standards. To conduct this 
work, GAO analyzed Federal survey data from the National Post-Secondary 
Student Aid Study, and conducted interviews with agency officials, 
school officials, students, and parents. Further details about the 
scope and methodology can be found in each of these related products.

    <bullet> Our prior work has noted that the overall population of 
post-secondary students with disabilities appears to have increased, 
rising to 11 percent of students. About a quarter of students with 
disabilities have reported having a mental, emotional or psychiatric 
condition. Other common types of disabilities reported by post-
secondary students include attention deficit disorder, mobility 
impairments, and learning disabilities. Demographically, we found that 
students with disabilities closely mirror students without 
disabilities, but are slightly more likely to attend college part-time.
    <bullet> Two Federal laws protect the rights of students with 
disabilities in post-secondary education--Section 504 of the 
Rehabilitation Act of 1973 (Rehabilitation Act) and the Americans with 
Disabilities Act of 1990 (ADA). The Rehabilitation Act prohibits 
discrimination by institutions of higher education that receive Federal 
financial assistance, such as Federal financial aid. The ADA covers a 
broader range of schools, including State and locally funded and 
private-sector schools.
    <bullet> Regarding enforcement of these laws, the Department of 
Justice can pursue any complaints it receives alleging discrimination 
under the ADA, regardless of the funding status of the respondent. The 
Department of Education can pursue complaints filed against schools 
receiving financial assistance from the agency at the time of the 
alleged discrimination. The Department of Education also provides 
grants and technical assistance to support students with disabilities 
in the transition to college.

    Our prior work has identified several key challenges faced by 
students with disabilities, as well as post-secondary schools:

    <bullet> The Transition to College Poses Challenges for Students 
and Schools. The transition from high school to post-secondary school 
presents challenges for students with disabilities because they must 
assume more responsibility for their education. In contrast to 
elementary and secondary school, they must identify themselves as 
having a disability, provide documentation of their disability, and 
request accommodations and services from their post-secondary 
institution. According to our work, this transition can be overwhelming 
and difficult for students to understand. Schools also face challenges 
related to this. Many schools proactively conduct outreach to students 
with disabilities and their parents to inform them of their rights and 
responsibilities, but reaching all students is difficult. This can 
become problematic if students request accommodations after classes 
have begun, as they may have fallen behind academically, and 
accommodations can take time to put in place.
    <bullet> Students Also Reported Challenges Documenting their 
Disability to Obtain Accommodations. Many students with disabilities 
are accustomed to certain accommodations or adaptive technologies and 
begin college to find they are not automatically provided for them in 
college. In many cases, colleges require updated disability evaluations 
conducted by qualified professionals. These evaluations can be costly 
and there may be long wait lists for appointments, which can cause 
delays for students who must wait for accommodations. Some schools 
reported providing assistance to students in obtaining evaluations at 
lower cost.
    <bullet> Three Student Populations May Create Additional Challenges 
for Schools.

    (1) Veterans with Newly Acquired Disabilities: Many veterans 
returning from Iraq and Afghanistan suffer from conditions such as 
traumatic brain injury and post-traumatic stress disorder, which are 
difficult to diagnose. Symptoms may not surface immediately after such 
injuries, but may instead manifest themselves once these students have 
already begun classes.
    (2) Students with Intellectual Disabilities: Students with 
intellectual disabilities--such as developmental disabilities or 
autism--are a population that schools believe will increase in the 
coming years. These students often require more specialized services 
that schools typically lack experience in providing, and may also need 
additional classes to address life skills, financial skills, or 
employment training.
    (3) Students with Mental Illness: Students with mental illness 
usually require multiple supports, and colleges may have difficulty 
coordinating accommodations and other benefits to support them. These 
students, whose disabilities are less visible, may also be among a 
group that chooses not to disclose their disability or seek 
accommodations until classes have already begun, resulting in service 
gaps.

    <bullet> In recent years, GAO has made recommendations to several 
Federal agencies, including the Department of Education, and the 
Department of Justice, to address some of these challenges, for 
example, by improving coordination among Federal agencies providing 
services and strengthening enforcement efforts related to testing 
accommodations.

    Thank you, Mr. Chairman and members of the committee, this 
concludes my remarks. I am happy to take any questions.

    The Chairman. Thank you very much.
    Ms. Ostrow.

  STATEMENT OF LAYSHA OSTROW, MPP, Ph.D., CANDIDATE, STUDENT, 
 JOHNS HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH, BALTIMORE, MD

    Ms. Ostrow. Thank you so much for having me here today.
    I can briefly summarize my written testimony. I was first 
in an inpatient psychiatric unit when I was 14-years-old and 
labeled with bipolar disorder and had multiple psychiatric 
system involvements after that.
    My freshman year of high school, I was in public school and 
my parents were asked to take me out because of my disability. 
From there, I was in several different high schools, eventually 
ending up in a residential treatment facility for girls with 
emotional and behavioral problems. I was there for 2\1/2\ years 
and technically graduated from my public school with very 
little actual education in high school.
    From there, I went to a private 4-year university in 
Massachusetts. I was integrated into a normal college setting. 
I am able to secure accommodations because I have had 
neuropsychiatric testing in high school having been a special 
education student. It is often, as Ms. Emrey-Arras said, more 
difficult for collage students to do that at that time if they 
have not had that testing in high school because of the 
resources that are required, or not wanting to disclose, or 
seek accommodations because of discrimination.
    In graduate school, I founded the first national support 
group for graduate students with psychiatric disabilities and 
from there created the Lived Experience Research Network, which 
is a student mental health service users survivor-run 
organization to support students of psychiatric disabilities.
    I found through my personal experience and my advocacy and 
research that despite the challenges I faced, there are many 
far more widespread and really disheartening experiences that 
people with psychiatric disabilities face in the education 
system, in the higher education system, and in high school, and 
as far as graduate school as well.
    These students often face discrimination, self-stigma, a 
public stigma, fear of stigma from faculty, and from 
administrators, and other students that prevent them from 
requesting accommodations. They may not even be familiar with 
their rights as people with disabilities.
    So based on my experiences, and advocacy work with other 
students, I would recommend three areas in need of attention in 
terms of policy.
    The first would be policies that facilitate grassroots 
organizing by students for independent, mutual support and 
self, and systems advocacy.
    The second would be institutional policy change including 
education about accommodations tailored to students with 
psychiatric disabilities. It can also be very different because 
they are, ``invisible'' disabilities.
    The third would be ensuring confidentiality and privacy in 
campus counseling centers, oversight of involuntary leave 
policies to prevent schools from dismissing students based on 
mental health problems, particularly suicidality. And critical 
investigations of consequences of stigmatizing policies that 
come from increasing student surveillance.
    The role of institutions of higher education is to 
facilitate intellectual growth of students, not punish them for 
their struggles. As we saw in a recent ``Newsweek'' article 
that the students are being penalized for suffering and not 
supported in pursuing education. I think the mental health 
problems should be somewhat separated from the education as 
education is a right for all of our citizens.
    [The prepared statement of Ms. Ostrow follows:]
       Prepared Statement of Laysha Ostrow, MPP, Ph.D. Candidate
    My name is Laysha Ostrow. I am a Ph.D. candidate at the Johns 
Hopkins School of Public Health and the co-executive director of the 
Lived Experience Research Network. I was hospitalized in a psychiatric 
unit for the first time when I was 14 years old, and labeled with 
bipolar disorder. In high school I was in a residential treatment 
facility for girls with emotional and behavioral problems for 2\1/2\ 
years. As an undergraduate I was able to secure accommodations 
primarily because of neuropsychiatric test results obtained as a 
secondary school student. This kind of testing is often unavailable to 
college students who first experience problems after high school. 
During my junior year of college I took a medical leave for depression. 
When I tried to return to school, I was discouraged from pursuing 
higher education by university clinicians, leading me to drop out. 
Subsequently I was declared permanently disabled and was on SSDI. I 
finished my Bachelor's degree when I was 26. Because of these 
experiences and experiences of colleagues, I co-founded the only 
national support group for graduate and doctoral students with 
psychiatric disabilities in 2011. Through participation in the group I 
became aware of even more widespread and often devastating 
discrimination and lack of support at both the undergraduate and 
graduate levels. My organization's Discrimination in Higher Education 
research and advocacy project has further documented the degree of 
discrimination and marginalization that students all too often face, as 
has the recent Newsweek headline story How Colleges Flunk Mental 
Health. Research confirms these reports: in a national post-secondary 
survey, for example, over 50 percent of students reported 
discrimination or stigma in the process of requesting accommodations. 
Researchers working in higher education have noted that few 
universities have the expertise or experience to support students with 
psychiatric disabilities, even though this group is one of the largest 
disability groups in higher education.
    Based on my experiences and advocacy work with other students I 
recommend three major areas in need of attention: (1) policies that 
facilitate grassroots organizing by students for independent mutual 
support and self- and systems-advocacy; (2) institutional policy 
change, including education about accommodations tailored to students 
with psychiatric disabilities; (3) ensuring confidentiality and privacy 
in campus counseling settings, oversight of involuntary leave policies 
to prevent schools from dismissing students, and critical 
investigations of the consequences of stigmatizing policies to increase 
student surveillance.
    The role of institutions of higher education is to facilitate 
intellectual growth of students--not punish them for their struggles. 
Education policy should not be focused on us as sick members of society 
needing treatment, but individuals with disabilities with a right to 
education and employment.

    The Chairman. Thank you and it is very profound. Thank you 
very much.
    Dana Fink, please.

    STATEMENT OF DANA FINK, ASSISTANT PROJECT COORDINATOR, 
      INSTITUTE FOR EDUCATIONAL LEADERSHIP, WASHINGTON, DC

    Ms. Fink. Good morning, Chairman Harkin, Ranking Member 
Alexander, and members of the committee.
    Thank you for the opportunity to speak about this critical 
topic with which I have personal and professional experiences.
    First to note about me is I am a person with multiple 
disabilities. I have had my physical disability since birth, as 
well as an anxiety disability acquired during college.
    Since graduation, I have worked to support transition paths 
for youth with disabilities into post-secondary education and 
the world of work. My current role, as you mentioned, at the 
Institute for Educational Leadership, I support a technical 
assistance center aiming to better serve all youth, including 
youth with disabilities, and a program training families and 
self-advocates to influence policy for people with disabilities 
throughout the District of Columbia.
    It is through these experiences that I have seen young 
people with disabilities be unable to obtain necessary services 
and supports throughout transition. It is with these supports 
that we know they can and will become contributing members of 
their communities, but without them, prospects are grim.
    I am also very proud to be a 2010 graduate of the 
University of Illinois, Urbana-Champaign. There was always an 
expectation in my family that I would graduate and go on to 
college, just as my two older sisters had before me. But in 
looking at some of the universities that they attended, it 
became clear that they could not provide the supports that I 
would need to be successful.
    A recent National Longitudinal Study by the Department of 
Education's Office of Special Education Programs, OSEP, showed 
completion rates for students with disabilities at 34 percent 
compared with 51 percent in the general population. Of those 
who lacked, reasons were varied, but included cost, poor 
grades, changing schools, and not getting needed services. I 
know that it is only due to the supports and services I 
received at my university that I was a part of that 34 percent.
    I was fortunate to be accepted into the University of 
Illinois, receiving a scholarship to play on the school's 
wheelchair basketball team, one of four such opportunities for 
women in the U.S. Illinois has been a leader in accommodations 
for students with disabilities since Dr. Nugent founded the 
university's disability student service center in 1948 ushering 
numerous firsts for students with disabilities since.
    I look forward to having an opportunity to share with you 
many of these best practices with the committee today, as well 
as some of the barriers that I have, unfortunately, seen faced 
by many of our Nation's brightest and most hardworking 
individuals with disabilities that have been unable to see 
success in post-secondary education and on into the world of 
work.
    Thank you.
    [The prepared statement of Ms. Fink follows:]
                    Prepared Statement of Dana Fink
    Good Morning Senator Harkin, Senator Alexander, and committee 
members. Thank you for the opportunity to speak about this critical 
topic with which I have personal and professional experiences. First to 
note about me is that I am a person with multiple disabilities. I've 
had my physical disability since birth as well as an anxiety disability 
acquired during college. Since graduation I have worked to support 
transition paths for youth with disabilities into post-secondary 
education and the world of work. In my current role at the Institute 
for Educational Leadership, I support a national technical assistance 
center aiming to better serve all youth, including youth with 
disabilities and a program training families and self-advocates to 
influence policy for people with disabilities throughout the District 
of Columbia. It's through these experiences, that I've seen young 
people with disabilities be unable to obtain necessary services and 
supports throughout transition. It is with these supports we know they 
can and will become contributing members of their communities, but 
without them, prospects are grim.
    I am very proud to be a 2010 graduate of University of Illinois, 
Urbana-Champaign. There was always an expectation in my family I would 
graduate and go on to college, as had my older sisters prior, but in 
looking at universities they attended, it became clear they could not 
provide supports I would need to be successful. A recent National 
Longitudinal Study by Department of Education's Office of Special 
Education Programs showed completion rates for people with disabilities 
at 34 percent compared with 51 percent in the general population. Of 
those who left, reasons were varied but included, cost, poor grades, 
changing schools, and not getting needed services.
    In high school, I researched schools to fit my needs and enrolled 
immediately in Georgia vocational rehabilitation (VR) services. I was 
told by my assigned VR counselor I was not a candidate for services 
because my disability did not have direct impact on my desired career 
choice, which at that time, was journalism. When my mother asked what 
would happen if I wanted to be a tap dancer, I was told instantly that 
would qualify me for services. This obviously did not sit right with us 
and through research we discovered the Client Assistance Program 
through which I was able to seek a more qualified VR counselor. I 
repeated this process again when my counselor was unable to support me 
going to an out-of-state school. Unfortunately, this lack of awareness 
from VR is a story that I've heard too many times and most students and 
families are not aware that they can appeal the process so they miss 
out on what allowed me to be successful in college.
    I was fortunate enough to be accepted into the University of 
Illinois, receiving a scholarship to play on the school's wheelchair 
basketball team (one of four such opportunities for women in the United 
States). Illinois has been a leader in accommodations for students with 
disabilities since Dr. Tim Nugent founded the university's disability 
student service center in 1948, ushering in numerous firsts for 
students with disabilities. This scholarship was a financial burden 
lifted for my family; but I had other costs, specifically related to my 
healthcare needs, so I established eligibility for Supplemental 
Security Income (SSI) and Medicaid which provided me with necessary 
healthcare coverage, while simultaneously limiting my asset limit to 
$2,000. Without my scholarship, attending an out-of-state university 
would have been an impossibility, even with programs like Ticket to 
Work and the Plan to Achieve Self Sufficiency plans aimed at 
alleviating this issue. Additional issues cropped up with SSI 
limitations when I tried to participate in learning experiences such as 
study abroad and out-of-state internships. For me, SSI played a strong 
role in helping me achieve my educational goals; however, for too many 
young people it becomes a life-long parking lot.
    Despite the barriers illustrated, more and more students with 
disabilities are enrolling in post-secondary education and discovering 
a higher education system not ready to accommodate them. We're seeing 
students who don't know their rights when they are no longer getting 
IEP services and understaffed, underfunded disability student service 
centers are more focused on legal compliance than supporting students 
in college and future employment.
    Again, I was fortunate to attend my university where the disability 
student center had so many of the supports I and my peers needed to be 
successful including: assistive technology, note taking, priority 
registration, testing accommodations, interpreters, tutoring, and 
onsite clinical psychologists. The academic accommodations at Illinois 
do not stop on campus. All their online and distance learning classes 
are automatically captioned. Their comprehensive commitment to 
inclusion also applies to career transitions services. Staff saw higher 
education as a stepping stone toward gainful employment, hosting 
workshops on disability disclosure and employment issues, providing 
career assessments, and bringing in organizations seeking employees and 
interns with disabilities. Unfortunately, this level of commitment to 
serving students with disabilities is not the case in far too many of 
our Nation's colleges and universities.
    Access at Illinois also included access to the other components 
that make up a true college experience, including recreation, study 
abroad, integrated housing accommodations, transportation, and 
healthcare. I got a top-notch education and, because of these supports, 
I left college prepared for work and independent living.
    If I could sum up a few recommendations for the committee to 
consider, I would encourage:

    <bullet> Working with existing Federal and State programs to 
provide students with disabilities an even playing field to afford 
college including creating clarity with asset limitations and opening 
minority and diversity scholarships up to students with disabilities, 
arguably the most underrepresented minority in higher education.
    <bullet> Starting transition programming earlier so students are 
knowledgeable of how their rights and responsibilities will change in 
higher education and what services are available to them.
    <bullet> Improving disability student services with increased staff 
and better integration into other areas of universities such as career 
center, tutoring services, and study abroad offices.

    Thank you for your time and for allowing me to share my story 
today.

    The Chairman. Thanks, Dana. Thank you very much. Welcome 
back.
    Mr. Farrior, welcome. Please proceed.

  STATEMENT OF WILL FARRIOR, STUDENT, COLLEGE OF CHARLESTON, 
                         CHARLESTON, SC

    Mr. Farrior. Good morning, Chairman Harkin, Senator 
Alexander, and other committee members.
    I must say what an honor it is here to be talking to you 
this morning. My name is Will Farrior. I am a 26-year-old 
College of Charleston senior at the College of Charleston's 
REACH program. I major at the College of Communication.
    A disability that refers to my uniqueness is called 
Asperger syndrome. In elementary school, I was able to function 
like everyone else. In fifth and sixth grade, my parents 
started to see red flags that included, excuse me, 7 hours of 
homework as well as observing my interaction with peers and 
adults. In eighth grade, I was diagnosed with Asperger 
syndrome.
    My experience at the REACH program has been an amazing one 
for several different reasons including my professors, job 
opportunities, and social activities. I was fortunate to have 
the opportunity to learn more about my uniqueness by being able 
to take Introduction to Psychology and Interpersonal 
Communications which has given me a better understanding to 
grasp and explain to others.
    The part I enjoy most about being in the program is that I 
have been able to take a variety of courses that have led me to 
my passion and field of choice. These classes include 
Introduction to Education, personal finance, public speaking, 
women and gender studies, strategic communications, business 
ethics, event planning, and many others. These courses 
eventually helped me to enhance my strengths and understand my 
weaknesses.
    For example when I was younger, I would ramble on and on, I 
would never pick up on body language, or be more concise when 
talking to others.
    The two things that are the second most marvelous part of 
being in the program is the job opportunities and social 
activities that come along with it. In order to graduate from 
the program, I must do some internships. The internships 
include the admissions office, Blackbaud, YMCA, Metanoia, 
Communities In Schools, and Medical University of South 
Carolina's public relations office. While having the chance to 
work with a variety of jobs, I was able to discover what 
direction I want to steer my career, which is youth.
    My social experience at the College has been an amazing 
one, as have my job opportunities. I have been able to change 
and grow by being more aware of how to interact with people 
along with participating in multiple organizations and jobs 
that are part of the campus. These include summer orientation 
intern, Alpha Kappa Psi Business Fraternity, mascot, 
Ambassador, resident hall assistant, and member of the 
Charleston 40 Tour Guide Association.
    Overall, my years at the College of Charleston's REACH 
program have been the best years of my life. The simple fact is 
that I have been able to grasp my uniqueness while teaching and 
learning from others around me. Also by being part of this 
program, I am able to be more confident knowing that I can find 
a career that I love and can make a difference.
    Thank you and it is a privilege.
    [The prepared statement of Mr. Farrior follows:]
                   Prepared Statement of Will Farrior
    Good morning Chairman Harkin and Senator Alexander and other 
members of the committee. I must say what an honor it is to be here 
talking to you this morning. My name is Will Farrior and I am a 26-
year-old senior at the College of Charleston's REACH program. My major 
at the college is communications. I am originally from Brooklyn, NY but 
was raised in a small town called Ravenel, SC about 45 minutes outside 
Charleston. My disability that I refer as to my uniqueness is called 
Asperger Syndrome. Between the age of 6 and 10 I was just like your 
average child and student making A's and B's while participating in 
extra-curricular activities. These include Cub Scouts and sports. 
During the transition stages of me going to different schools my 
parents started to recognize certain signs of me struggling in 5th and 
6th grade. The red flags that brought this attention toward them 
included doing homework from 5 p.m. to maybe 12 a.m. or 1 a.m. as well 
as observing my interactions with peers and adults.
    Eventually, I went to numerous doctors who tried to figure out what 
my actual situation was. It was not until my 8th grade year that I was 
diagnosed with Asperger Syndrome. The Doctor told my parents that I do 
not have ADD or ADHD. Now, I always knew there was something different 
about me, but I never could figure it out until I got into my late 
teens.
    I graduated high school in 2006. The following spring semester of 
my first year in college at Trident Tech, was the most dramatic year of 
my life because my father died a month later after my birthday. During 
that semester I could not seem to concentrate on academics or anything 
else. While going through a lot I eventually got a full-time job which 
turned out to be the night shift at Charleston Air Force Base as a 
custodian. Then after working with them for about 2\1/2\ years, I 
switched over to Super Wal-Mart as a stocker in dairy just for about 7 
months. My life then changed when I learned about the REACH program.
    My experience at the REACH program has been an amazing one for 
several different reasons, including the professors, job opportunities, 
and social activities. During freshmen year I was so fortunate to have 
the opportunity to learn more about my uniqueness by being able to take 
introduction to psychology and interpersonal communications. The 
professors Dr. May and Dr. McGee were able to give me a better 
understanding of my uniqueness to grasp it and explain it to others who 
never met me before. The part I enjoyed most about being in the program 
is that I have been able to take a variety of courses that have led me 
to my passion and field of choice. These classes include introduction 
to education, personal finance, advanced personal finance, introduction 
to business, public speaking, women and gender studies, graphic novel, 
strategic communication, business ethics, event planning, and many 
others. These courses eventually helped me to enhance my strengths and 
understand my weaknesses. For example when I was younger I would ramble 
on and on and I would never pick up on body language, or be more 
concise when talking to other individuals.
    The two things that are the second most marvelous part of being in 
the program to me is the job opportunities and social activities that 
come along with it. In order to graduate from the program I have to do 
seven internships which don't start until your second semester. The 
internships that I have been able to enjoy are in the Admission office, 
Black Baud, YMCA, YWCA, Metanoia, Communities In Schools, and the 
Medical University of South Carolina's Public Relations office. While 
having the chance to work with a variety of jobs, I was able to 
discover what direction to steer my major and career toward in the near 
future. The career path I have chosen is to work with youth from ages 
11 and up by helping them make a smooth transition from middle school 
to high school then to college or whatever direction he or she may 
choose to take.
    My social experience at the College of Charleston has been just as 
amazing as my job opportunities. For example being here I have been 
able to change and grow by being more aware of how to interact with 
other people along with participating in multiple organizations and 
jobs that are part of the campus. These include being the first REACH 
student to be a Summer Orientation Intern, Alpha Kappa Psi Business 
Fraternity member, College of Charleston Mascot, College of Charleston 
Student Ambassador, REACH Ambassador, Residence Hall Assistant, Nominee 
for Homecoming King and member of the Charleston 40 Tour Guide 
Association.
    Overall, my years here at the College of Charleston's REACH program 
have been the best years of my life. The simple fact is that I have 
been able to grasp my uniqueness while teaching and learning from 
others around me. Also having been part of this program I am more 
confident knowing that I can find a career that I love and can make a 
difference.

    The Chairman. Thank you, Mr. Farrior. Are you graduating 
this spring?
    Mr. Farrior. Yes, sir. I graduate May 10, 2014.
    The Chairman. Good for you. OK.
    Senator Alexander. Senator Scott is his graduation speaker.
    The Chairman. Oh, he is?
    Senator Alexander. Yes.
    The Chairman. So you are giving the commencement address 
there, eh?
    Senator Scott. Unfortunately for him, yes, sir, I am.
    [Laughter.]
    Congratulations.
    Mr. Farrior. Thank you.
    The Chairman. Well, make sure you single him out.
    Senator Scott. I will do that.
    The Chairman. Ms. Getzel, welcome. Please proceed.

 STATEMENT OF ELIZABETH EVANS GETZEL, PROJECT DIRECTOR, ACE-IT 
   IN COLLEGE, VIRGINIA COMMONWEALTH UNIVERSITY, RICHMOND, VA

    Ms. Getzel. Thank you.
    It is a privilege to be here today to discuss the access to 
post-secondary education for students with disabilities. I have 
been in the field of higher education and disability since 
1979, and have worked to research and demonstrate effective 
strategies and supports for college students with disabilities.
    I am the project director of ACE-IT in College, which is an 
academic and employment preparation program for individuals 
with intellectual disabilities. Our university is 1 of 27 
Transition and Post-Secondary Education Programs for Students 
with Intellectual Disabilities, or as Senator Harkin said, 
TPSID. These are model demonstration programs that were 
authorized through the Higher Education Act.
    Colleges and universities are seeking models of support for 
all students entering their campuses. Peer mentoring or mentors 
who provide academic support are not uncommon. Internships, 
cooperative education, or other work experience-based programs 
are an integral part of all college students' experiences 
preparing them to compete in the global economy.
    These same types of supports are being used throughout the 
TPSID programs to provide opportunities for students with 
intellectual disabilities whose access to higher education is 
extremely limited.
    Model demonstrations pure to TPSID's are creating 
opportunities for students to develop interests and skills for 
lifelong learning, build a successful resume through 
internships and paid employment while on campus, and enter 
integrated competitive employment settings as a result of these 
experiences. The combination of knowledge and skills students 
gain through these demonstrations can serve to enhance their 
future employment options and lifelong earnings.
    For me, a young woman named Susan, one of our most recent 
graduates, comes to mind. Susan earned a special diploma and 
had limited work experience while in high school. She was very 
clear when she entered ACE-IT in College that her career goal 
was to work with children. She took courses in early childhood 
education, worked part-time at our University's child 
development center, and worked as an intern at a local 
elementary school.
    The coursework and experiences she gained helped her to 
develop a strong resume, making her more competitive in the 
workforce. Susan's experiences echoes the experiences of many 
other students with intellectual disabilities attending college 
programs across the country.
    I look forward to talking further about some of the 
recommendations that we would like to discuss with you in terms 
of the continuation of these particular programs because we see 
them as vital for this particular population that typically has 
limited access to many experiences that other individuals are 
able to have.
    Thank you very much.
    [The prepared statement of Ms. Getzel follows:]
              Prepared Statement of Elizabeth Evans Getzel
    Employment rates for all individuals with disabilities can range 
from 34 percent to 39 percent in comparison to the employment rate of 
76 percent to 79 percent for individuals without disabilities. For 
individuals with intellectual disabilities, the rate of employment has 
declined over the past 5 years. In 2008, the rate of employment was 
reported at 28 percent, while recent numbers show it is anywhere from 
18 percent to 23 percent. The downward employment trend in this 
population will not improve until new ways are found to meaningfully 
integrate these individuals into the labor force.
    We know that higher education can lead to a variety of personal and 
financial benefits for all individuals seeking to learn new knowledge 
and skills. Advanced learning can lead to improved outcomes for all 
individuals; but the impact of higher education on individuals with 
disabilities is particularly evident. Individuals with intellectual 
disabilities who participate in any post-secondary education experience 
(not necessarily earning a degree or certificate) are employed at 
double the rate of those with just a high school diploma. Based on 
national data gathered by the Rehabilitation Services Administration, 
young adults with intellectual disabilities who participated in post-
secondary education were 26 percent more likely to exit their 
vocational rehabilitation program with employment and earned a 73 
percent higher weekly income.
    In 2008, Congress created a new model demonstration program, the 
Transition and Post-Secondary Education Programs for Students with 
Intellectual Disability (TPSIDs) and an accompanying National 
Coordinating Center. These programs began in 2010 and were awarded to 
institutes of higher education that sought to demonstrate and validate 
this emerging pathway to increased integrated competitive employment 
and lifelong learning. Prior to 2008, there was no guidance provided to 
the field of higher education and disability on programs for 
individuals with intellectual disabilities. The data collected from the 
27 Transition and Post-Secondary Education Programs for Students with 
Intellectual Disability (TPSID) by the National Coordinating Center 
provide the first national picture of how students with intellectual 
disabilities can attend college and derive the same benefits sought and 
achieved by other college students. Since its inception in 2010, the 
percentage of paid jobs held by TPSID participants while in college 
increased steadily from 30 percent to 36 percent, with the majority of 
these individuals earning minimum wage or higher. Close to half of 
these students with paid jobs had never worked prior to attending their 
TPSID program. When compared to the previously stated low employment 
rates, students with intellectual disabilities who attend college far 
exceed these rates, clearly demonstrating that post-secondary education 
is a viable pathway to employment.
    We know that all students with disabilities can benefit from 
participating in college with the right supports and accommodations, 
and students with intellectual disabilities are no different. We are at 
a critical juncture for the continuation of the Transition and Post-
Secondary Education Programs for Students with Intellectual Disability. 
These programs are about increasing the employment and the long-term 
earnings of students with intellectual disabilities. In the past 3 
years, data from the 27 programs are showing increased access to paid 
employment, internships, and college coursework that can lead to better 
employment opportunities for individuals with intellectual 
disabilities. Continued funding is necessary to expand and sustain 
access to inclusive higher education in 2- and 4-year colleges, 
universities and technical schools. It is important that research is 
conducted to discern both the long-term fiscal impact on higher 
education institutions, as well as the potential reduction in Federal 
assistance program dependency as a result of these opportunities.

    The Chairman. Thank you, Ms. Getzel.
    And now we will finish up, Ms. Myers. Welcome. Please 
proceed.

  STATEMENT OF KATHERINE MYERS, ASSOCIATE DIRECTOR, OFFICE OF 
    DISABILITY SERVICES, WRIGHT STATE UNIVERSITY, DAYTON, OH

    Ms. Myers. Good morning, Chairman Harkin, and Ranking 
Member Alexander, and members of the committee.
    Thank you very much for this opportunity to be here this 
morning to talk about higher education.
    To understand Wright State University and what we do now, 
it is important to have a little bit of our history. The 
University is quite young. We were established in 1967. The 
Office of Disability Services was established in 1970 as a 
result of the receipt of a TRIO Grant to start the program.
    It started out in a dorm room in the only dorm that we had 
on campus. This was before anything was mandated by law. We 
already had students with physical disabilities on campus 
because the first building that we had was actually built with 
a flush entrance. So that actually helped to get the first 
student with a physical disability on the campus.
    As a result of that, a commitment started to provide 
services to students with disabilities. Over the years, as our 
population has changed, we have increased the services and 
increased our staff. We are very fortunate that our commitment 
is from our top level support. We have very strong support and 
have had since the inception of the department, support from 
our president, our provost, and we are with student affairs, 
and under our vice president of student affairs. So we have 
very strong support within the University.
    As a young University, the faculty that we had at that time 
also as they were growing with us, they grew with the 
Department of Disability Services. So they were also very much 
for what we were doing and helped us with providing our 
accommodations.
    We have adjusted our accommodations based on our 
population. When we got our first students with learning 
disabilities and our first students with blindness is when we 
established our tape center to tape record textbooks into audio 
formats for our students.
    When I arrived about 20 years ago--it will be 20 years in 
May--I was in charge of the tape center and also in charge of 
the adaptive technology on the campus. We were reading 
textbooks at the time, but it did not take very long for us to 
get our first request for a scanned book by a student with a 
physical disability who could not manipulate his textbooks. He 
needed to be able to access them on his computer, so we started 
doing scanned books for him.
    Then we had--I will never forget the day--we had a student 
named Brock, who came into the office who was using our tape 
recorded books. We also used a service from Recording for the 
Blind and Dyslexic. If they had the books, we did not actually 
produce them ourselves; we ordered them from them. And he came 
in asking if we had read the book for psychology. He had a 
physical disability. What was preventing him from succeeding in 
his classes was his attention deficit disorder. It was so 
significant for him that he had a very hard time flipping the 
tapes over constantly for the 4-track tapes from Recordings for 
the Blind. Unfortunately, we had not read the book. We had 
gotten it from them. However, we had scanned the book and it 
was a very rough scan. It was not cleaned up. It had not been 
edited yet and I offered that to him.
    A few days later he came back in and he said, ``For the 
first time, I have been able to study for more than 15 minutes 
at a time.'' The student went from a very marginal C student to 
an A/B student who graduated with honors from Wright State, 
went on to get his master's degree, and then complete his Ph.D. 
That told me we were on the right track.
    One of the things as part of our history, too, is the 
establishment of the AHEAD organization. In 1977, the first 
conference on disabled students on American campuses was held 
at Wright State University. The attendees of that conference 
formed the Association on Handicapped Student Service Programs 
in Post-Secondary Education. In 1992, the organization was 
renamed to the Association of Higher Education and Disability, 
also known as AHEAD. This is the organization that we use to 
help us with our guidelines as to what kinds of services that 
we do and the documentation that we need. They have done an 
excellent job of assisting in that realm for us, so that we 
actually have guidelines to follow.
    The program has gone from, in 1970, being in a dorm room 
with one person, to an office suite in our student union with 
seven professional staff, three support staff. Our professional 
staff includes a psychologist who works on assessing students 
if needed. She also has three School of Professional Psychology 
practicum students that are under her, and help with testing 
students, and provide some mental health counseling. We also 
have one graduate student for the technology center.
    So our growth is great. We have gone from providing just 
test proctoring for students to providing test proctoring that 
includes extra times when needed, computers with both adaptive 
hardware and software. And then we also have note-taking 
programs for students within the classroom, interpreters in C-
Print when needed for our students who are deaf or hard of 
hearing. Our technology center provides textbooks in 
alternative formats that include CD's for them to listen to, 
text files that they can put on their computers to listen to, 
or a PDF file so they can just look at the materials, and 
Braille. And we do all the formats of Braille, which include 
the regular Grade 2 contracted Braille, computer Braille, 
foreign language, math, and music.
    It is a great privilege to be here and to share our 
recommendations on the things that we would like to see happen. 
Thank you very much.
    [The prepared statement of Ms. Myers follows:]
                 Prepared Statement of Katherine Myers
    At Wright State University, we provide services to approximately 
650 students with disabilities. Nationally, roughly 11 percent of 
college students have disabilities and 6 percent request services. Much 
like other college or university campuses, the fastest growing group of 
students with disabilities is those students on the Autism spectrum and 
those with mental health-related diagnoses. For our students on the 
Autism spectrum, we have developed an academic coaching program. We 
hire upper-level undergraduate and graduate students to be mentors; we 
train them how to work with a student on the spectrum, and assign them 
to new incoming students who need improvement in key skill areas. The 
students can meet with their assigned mentor up to 10 hours per week, 
working on ``soft skills,'' such as time management and organization. 
They might also work on establishing relationships with professors and 
roommates, as well as forging new friendships. We are planning to 
expand this program in the future to include students with mental 
health-related disabilities.
    Other services we have available to eligible Wright State 
University students registered with our office include: test proctoring 
(which includes extended time), private testing rooms, computers, 
speech-to-text software, screen reading software, screen enlargement 
software, document cameras (for enlarging paper exams or handwritten 
notes), scribes, readers, four-function calculators, in-class 
assistance, and copies of notes from peers in the classrooms. We have a 
comprehensive Technology Center for the production of textbooks and 
other printed class materials in alternative formats. These formats 
include audio CDs or MP3 files, text files for the students to use with 
their screen reading software, enlargeable PDF files for students with 
physical disabilities or those with visual impairments, Braille 
(including math Braille [Nemeth code], computer Braille, contracted 
Braille, foreign language Braille, and music Braille), and raised line 
image enhancement.
    The Office of Disability Services is not the only location on 
campus providing services to students with disabilities. The Biology 
Department has an adaptive biology lab for students who need extra 
assistance completing their labs. Campus Recreation is in charge of the 
adapted recreation program, which includes adapted skiing and bowling, 
and wheelchair basketball. There is a National Science Foundation grant 
directed by a research professor; the program is designed to encourage 
students with disabilities to go into the STEM fields. This program 
includes an Ability Advisor, who works one-on-one with the students in 
STEM majors, professional mentoring, as well as its own Choose Ohio 
First Scholarship.
                            recommendations
    First, when it comes to working with students on the Autism 
spectrum and those with mental health disabilities, we do not have all 
of the answers. We need technical assistance in what accommodations and 
supports are appropriate, both academically and socially. With that 
kind of assistance, we would be better prepared to help these students 
to be successful in obtaining their college degrees.
    Additionally, although our Technology Center utilizes a textbook 
clearinghouse called AccessText for the majority of our books needing 
an alternative format, this service only provides titles for 
approximately 60 percent of our textbooks. Students who purchase 
electronic books from publishers or the bookstore usually cannot get 
them to work with their text-to-speech or screen reading software 
because of the graphic nature of the books. Disability Service 
providers really need the publishers to be pushed to provide accessible 
electronic books. I would encourage the committee to review the 
Department of Education's AIM (Accessible Instructional Materials) 
Commission's report and print access issues in Higher Education.
    There also needs to be a greater push for Universal Design for 
Instruction that would include funding to train faculty on different 
teaching methods that would create accessible course content for all 
students. If courses are planned & designed to be accessible, it would 
reduce the amount of work needed to provide our students with the basic 
necessities for their courses. Instructors are increasingly utilizing, 
if not completely relying on web-based communications. The Department 
of Justice is currently engaged in rulemaking focused on accessible web 
design and I encourage that those regulations be given a priority. 
Last, there is a dearth of data on college students with disabilities. 
I would recommend that tracking the number of students with 
disabilities being served be included in the IPEDS Census.

    The Chairman. Thank you all very much. Again, we are going 
to try to make this as a general discussion. If people want to 
just break in, kind of break in; I will not do recognitions, 
just kind of jump in.
    I am just going to kick this off. Ms. Myers, I just said 
that I read about Wright State last night. I never heard of 
this school before. So I was reading about all of this last 
night.
    How big is Wright State now? Tell us.
    Ms. Myers. It is about 17,000 students.
    The Chairman. Seventeen thousand.
    Ms. Myers. Yes, sir.
    The Chairman. Now, what you are doing there is phenomenal. 
I do not know that it is being done anywhere else. You have 
this Office of Disability Services.
    Ms. Myers. Yes, sir.
    The Chairman. You are doing all this stuff. Does that not 
cost a lot of money?
    Ms. Myers. Yes, sir, it does.
    The Chairman. Now, how did you get your board or whoever 
runs your school, the college president, how did you convince 
them to provide for this?
    Ms. Myers. We started out funded for the first 21 years 
through TRIO Grants.
    The Chairman. What?
    Ms. Myers. Through TRIO Grants.
    The Chairman. Oh, TRIO Grants. Yes.
    Ms. Myers. And at that time, when we lost our TRIO Grants 
in 1994, our director at that time went to the administration 
and to the State. The first one was to the administration to 
make sure that we were a line item in the University's budget. 
When we had the TRIO Grants, we only had two of our staff 
members who were funded through the University, so the entire, 
all of our salaries then became funded through the University.
    We also went to the State and worked with some of the other 
schools within the State to get a line item in the State budget 
for disability services for the other schools. So there is 
actually a formula based on the types of services, the amount 
of services that you provide, and some of the services that are 
above and beyond what most schools would do.
    The Chairman. Yes, you do more than I have ever seen, 
anywhere.
    Ms. Myers. Those extra services include an adaptive lab for 
our biology program. We also have National Science Foundation 
Grants. One is for a STEM program to encourage students with 
disabilities to go into STEM fields. So we seek out grants.
    We also, the University has a philosophy that whatever we 
have spent over our budget, they will support.
    The Chairman. Now, all the rest of you, you have heard 
about Wright State? Is that your experience with the schools 
you went to also? Am I missing something? I mean, did they have 
that kind of support services for all the students with 
disabilities? I do not think so, but I do not know.
    What was your experience? It seems like there are all kinds 
of support systems built-in to Wright State. Everything from 
recruiting to accommodations for textbooks, accommodations 
even, I understand, for living arrangements.
    Ms. Myers. Yes, sir.
    The Chairman. You even have people there to help students 
with disabilities in terms of personal assistance during the 
day. Is this true at your schools too, Ms. Ostrow?
    Ms. Ostrow. Obviously, I am speaking on behalf of students 
with psychiatric disabilities. I think the issues are a bit 
different and although resources are often associated with more 
success in many domains of life, there are some things that 
money cannot buy like compassion.
    I would say in my experience and in the experience of other 
students that I know through our networks, sometimes it is the 
informal accommodations as in talking to a professor or an 
advisor or administrator that are more helpful for students 
than the formal ones, obviously in terms of psychiatric 
disabilities.
    So while I have gotten extended test taking time or a 
separate room, and those things do take resources, sometimes it 
is the ability to work from home, or to make my own schedule, 
or take out extensions that I negotiate with a professor 
directly that make more of a difference in my life than a 
separate room to take a test.
    The Chairman. What we have done in the past in these kinds 
of roundtables, if you want to jump in and say something, take 
your name like that, that way I know if you want to jump in and 
say something. Well, there you go. That is what I mean. OK. Ms. 
Getzel.
    Ms. Getzel. I think you raise an important question. 
Support services for college students with disabilities do vary 
a great deal, even within a State they can vary a great deal.
    And so it is, I think, that most accommodations that 
universities and colleges provide are sort of some of the 
standard accommodations: extended time, taking tests in areas 
where there is no distraction and things like that.
    So there are universities and colleges in all States that, 
I mean, Wright State has had a long history, and I have known 
about Wright State for many, many years and they definitely are 
a leader in this area. There are other schools that are leaders 
as well, and we need to learn more from these leaders because 
there is such a variety.
    What we tell students and which is so critical during the 
transition process to college, is that they really need to look 
at what services and supports are provided to find the right 
match, to really look at what is available, not only in 
coursework, but also in terms of supports. And to talk to 
students with disabilities who have attended various colleges 
to really get a very, very good idea of that.
    So with all students going, you want to find the college 
that has the programs or courses that you want. With students 
with disabilities, they have the extra responsibility of 
looking at what kinds of services and supports that they will 
need to be successful.
    The Chairman. Ms. Fink.
    Ms. Fink. I have been fortunate to have visited Wright 
State and it definitely is a rare gem among universities. I can 
say the same for my alma mater, the University of Illinois, 
which had so many of the supports that I needed to be 
successful. Things like assistive technology, note-taking, 
priority registration for your classes so you can put them 
around what might be a challenging schedule with healthcare 
concerns, testing accommodations, tutoring, onsite 
psychologists, those sorts of things.
    Those accommodations did not stop on the campus either. All 
of their online and distance learning classes were captioned 
and audio described immediately, so anyone who wanted to do 
remote classes could do that equally well.
    And then I think something that is common both for Wright 
State and for the University of Illinois is that comprehensive 
commitment to inclusion that applies to clear transition 
services, seeing post-secondary education as that step onto the 
world of work. Things like workshops, having workshops on 
disability disclosure in the workforce. Having career 
assessments through your disability service center or working 
with some of the career transition services to work 
collaboratively with disability student services; it is 
something that I know Wright State does and I know Illinois 
does as well. Bringing in organizations that are looking to 
recruit interns or employees with disabilities, so that is 
really going that next step beyond accommodations in school to 
accommodations in school that will then help you to be 
successful further in life.
    The Chairman. Later on.
    Senator Baldwin, did you have something you wanted to 
interject, before I call on Mr. Farrior?

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman. Perhaps just 
broadening the question, this is very much on point with the 
question you raised, to talk about the transition between high 
school to college, and what institutions of higher learning can 
provide at that moment.
    I was reviewing what is happening in my home State of 
Wisconsin, and there are two campuses of the University of 
Wisconsin system, Whitewater and Oshkosh, that have looked at 
this transition from high school to college by deciding to host 
a targeted summer transition program. At the UW Whitewater 
campus, it is open to any student with any type of disability, 
and the program enrolls about 65 students annually and consists 
of two college courses for six credits, peer mentors, social 
activities, access and training to adaptive technology, and 
intensive case management.
    As I understand it, the National Longitudinal Transitional 
Study notes that students with disabilities are graduating 
college at a national rate of about 34 percent from 4-year 
degree programs. This UW Whitewater program is lifting that up 
to about 48 percent in 6 years.
    But I am wondering what your thoughts are from your variety 
of experiences about transitional models to help increase the 
success at the higher educational institution.
    The Chairman. Anybody? Mr. Farrior, did you want to get 
involved in that or Ms. Myers? I know you still wanted to have 
an interjection here. I saw your card up. What did you want to 
say?
    Mr. Farrior. Just to go along with what these ladies have 
said is actually true. They do actually have their services on 
a variety of campuses. But it is my understanding, from my 
perspective, helping students that are transitioning as from my 
orientation end time perspective, they do have the 
accommodations. There is one woman that actually needed the 
assistance for her residence hall being that she was blind, and 
had a seeing eye dog, and they made accommodations for her to 
live in an all-girls residence hall. And they actually--it is 
just an to-each-his-own campus that allows students, when they 
do register early, the option to register early, as when they 
get accepted, they make appointments to speak with the staff 
services, so.
    The Chairman. Ms. Myers, did you have a specific response 
to Senator Baldwin?
    Ms. Myers. Yes, sir. I do.
    The Chairman. Yes, sure.
    Ms. Myers. Transition from high school is very difficult 
for a lot of students, and it is something that we recognize, 
and we do actively recruit students. And we have tried working 
with some of the high schools to see if there can be better 
transition for them. And we have also sought out a number of 
grants to help us get into those high schools to help those 
students and establish some summer programming, which we have 
not been successful in doing.
    But one of the things that we do because we know that that 
transition is difficult, our students who we consider to be our 
greatest at-risk students, we do some extra programming for.
    We actually have an academic coach program where we hire 
upper level and graduate students to work with incoming 
students, particularly on the autism spectrum. We know that 
they have a very difficult time, especially socially, and 
dealing with the soft skills, the time management, getting 
their homework done because nobody is telling them to do that.
    The coaches can work with a student up to 10 hours a week 
to provide them with support, and this is a program that we are 
wanting to expand and looking to do to expand to our students 
with psychiatric-type disabilities in the very near future.
    We also, because of the limitations that we have with 
student employees as far as being able to do the coaching part, 
there are students particularly with attention deficit disorder 
and some of our multiply-disabled students. We do what we call 
one-on-one support. We target them when we do their pre-service 
interview as students that we need to meet with on a regular 
basis.
    One of our staff members will then meet with the student, 
usually weekly during their first semester. If they are doing 
really well after their first semester, we start spacing that 
out to every 2 weeks, so that the student eventually becomes 
more independent.
    This gives us constant contact with the student, so we can 
better know if they are having trouble. They are more likely--
because they are actually establishing a relationship with 
someone--because some of these students are hesitant to do 
that. They need to have someone that they can count on to 
actually be their counselor that they can meet with all the 
time, and not be thrown from one person to another to another. 
This counselor helps to make sure that they are actually 
plugged-in to our services, along with plugged-in to the 
tutoring services, our writing center, the other services that 
we offer on the campus to all students.
    That is a difficult piece and really needs to be addressed, 
and worked on a much more intense basis.
    The Chairman. Ms. Ostrow.
    Ms. Ostrow. To answer your question about transition, I 
think there are at least two groups of students here.
    One is those students, like myself, who had disabilities in 
high school and then are transitioning as students with 
disability to college. And the other are people who start 
experiencing difficulties in college, and there are very 
different challenges there, I think, for students who are 
coming from a high school, and is already disabled. There is 
more the internalized shame and stigma that they can experience 
transitioning to college.
    For students that start having problems in college, it is 
maybe not knowing what it is that they have to do in terms of 
what documentation is required, which can often be extremely 
onerous, and facilitating those kinds of interactions. I would 
think decreasing the burden on students of documenting a 
disability, like having to go through for psychiatric 
disabilities, or the mental health system in order to get 
educational accommodation does not make that much sense to me.
    On the issue of sort of targeting at-risk students, that 
can be perceived very differently by people or, in fact, be 
carried out very differently. There is a lot of stigma about 
violence in people with mental illnesses, especially now and 
especially on campuses. As one of those students, I do not 
particularly want to be targeted by the school administration 
or mental health counselors. That just increases anxiety and 
paranoia, which can lead to more difficulties in educational 
achievement. But at the same time, I do think it is helpful to 
have someone consistently there that you trust that you can 
seek guidance from, whether it is a peer, or a faculty member, 
or someone in the counseling center, or just disabled student 
services.
    The Chairman. Yes.
    Ms. Emrey-Arras. Just to piggyback off of what Ms. Ostrow 
was saying about populations that may have disabilities for the 
first time when they go to college.
    I think it is important for us to think about veterans 
coming back from the conflicts in Iraq and Afghanistan. Many of 
them coming back with sort of those invisible wounds of 
traumatic brain injury, PTSD, and having those disabilities in 
an academic setting for the first time.
    In our work, we did find that some schools are providing 
services specifically for the veteran population. Some have 
mental health counselors that are trained in those issues to 
specifically treat veterans. And we have made recommendations 
to the Department of Veterans Affairs to help share best 
practices amongst colleges to serve that population.
    The Chairman. Ms. Fink.
    Ms. Fink. I think programs like what you have mentioned are 
critical for all students, including students with 
disabilities, but also in particular, for students with 
disabilities, transition cannot start when we turn 18. This is 
a burden in the school systems and looking at some of our 
current systems like voc rehab and Social Security to look at 
where that transition process can start when we are 14, 15. It 
should not be when I am trying to look at schools and saying, 
``Oh, this is where my sister went to school. It is not going 
to work for me. What do I do now?'' And that actually was 
something that we have seen really delay a lot of the 
educational practices of students with disabilities who end up 
having a larger gap process in between high school and college.
    The Chairman. Yes.
    Ms. Getzel. There has been a lot of research, and 
demonstration, and work around transition. And we know that 
academic preparation and understanding of what the higher 
education system is like. There is very little communication 
between higher education and secondary education. They are two 
different systems.
    What happens with students coming out of high school with 
disabilities, if they do not understand that what they were 
entitled through IDEA is now ended, and they go into an 
eligibility process now in terms of what the accommodations 
are, that the accommodations at college are for access. And 
just the whole notion of what types of supports they need.
    We have been running a program since early 2000 and it is 
ACE-IT in College. We have been adapting this model for a 
number of years. We have worked with students who have cross 
disabilities. They are college students coming to us for those 
supports that they need in terms of above and beyond what they 
are getting from a disability support service. We work very 
closely with them. But we have been working with veterans. We 
have been working with a variety of students.
    Again, it comes back to an understanding of what that 
transition means, and we focus a lot on that big transition 
which is very important, to be knowledgeable families to have 
transition planning. We feel that the whole transition planning 
for post-school outcomes should begin in middle school and even 
started to be discussed in elementary school all the way up. 
And that should be for all students, but in particular students 
with disabilities because they do end up at 18 saying, ``What 
am I going to do? What is happening?'' So it is very, very 
critical for that.
    We have found that students that come to us for support are 
unaware of how their disability impacts their learning, and 
what they do need. And self-determination is a very big 
movement now going through secondary education to really know 
all parts of you. Too often, students are only known by their 
disability label, which is unfortunate and not looking at their 
skills and abilities. And we are finding this especially with 
students with intellectual disabilities, but it does run the 
gamut with students.
    And it is very important to look because supports and 
services do vary so widely across post-secondary institutions 
that it is so important for students to really look at what 
that transition is, ``Do I have the academic preparation? What 
are the supports and services?'' and really get a good grasp of 
that. We call that our first big transition.
    The second big one is getting out of college, and retention 
and graduation rates, especially for students with 
disabilities, is not that great. We need to continue to improve 
that. We looked at what some of the causes are, and some of the 
causes are the lack of available services, or financial 
difficulties, or personal issues, that kind of thing.
    So when we looked at our ACE-IT in College and did a study 
with students with learning disabilities, and ADHD, and we have 
also done it with traumatic brain injury, we found that that 
type of support along with all the resources on campus, many 
times, students do not know what is available to them on 
campus.
    But I think one of the things that distresses me the most 
is that we really need to be working with students with 
disabilities, in particular, to really work on strengths, 
interests, and what are those accommodations or supports they 
need. Because when they come to us, we say to them, ``What are 
your strengths?'' and oftentimes these students are dumbfounded 
to list it. If you say, ``What do you believe are your 
weaknesses?'' I mean, they can say those things right away.
    We want to look at a holistic picture of these particular 
students. And when we say, ``How does your disability impact 
your learning?'' oftentimes there is a difficulty in 
understanding that.
    The Chairman. Mr. Farrior, did you have something you 
wanted to add to this?
    Mr. Farrior. Actually, I have to agree with Ms. Getzel 
because from my transitioning, I have gone throughout from 
school to school to school to school to find what works for me. 
It goes along when you said you have to go middle school, I 
feel like it needs to start in elementary, roughly about fourth 
to fifth grade because when you are making that transition from 
elementary to middle school, you are trying to figure out where 
do you fit and where do you belong? Where is your voice, where 
you can advocate for yourself, because not everybody is going 
to have that support system.
    The Chairman. That is right.
    Mr. Farrior. So that is where you need to start; the 
earlier, the better.
    The Chairman. Yes, I am sorry. Ms. Myers.
    Ms. Myers. To piggyback on what Ms. Ostrow said about 
students with psychiatric disabilities, it is important for 
students to understand who knows what their diagnosis is. One 
of the things that we have done at Wright State is it is all 
centralized in our office. We emphasize to the students that 
the knowledge of their disability is confidential.
    We do not reveal to faculty, if they call us about a 
student, what the disability is. We will confirm what the 
accommodations are for that student, and students do have an 
accommodation sheet that they can show their faculty. And we 
encourage students to get to know their faculty on a personal 
level, be visible to their faculty, go to them during office 
hours. They do not have to tell them what their actual 
disability is, but to try to talk with them about it, about 
themselves and the things that they actually have difficulties 
with, so that they also are learning how to self-advocate for 
themselves.
    We will step in whenever we need to. If we need to set-up a 
meeting between the student and the faculty, go with them if 
they are concerned about actually talking to a faculty member 
on their own, so that they can actually get buy-in from their 
faculty about the kinds of needs that they have.
    Then the other thing is what Ms. Getzel was saying about 
transition beyond college. We actually have a vocational 
support coordinator on our staff who works with students and 
starts talking to them at the very beginning about internships.
    One of the things that we have seen with students with 
disabilities is they do not have the same opportunity to build 
their resume as a lot of other students do. They are not apt to 
even go to McDonald's and flip hamburgers. Some of them do not 
have the ability to do that, so how are they going to build 
their resume, and especially build it within the area of their 
interest.
    So we work with them and start looking at internship 
opportunities. We work with the Workforce Recruitment Program 
that is for Federal employment. We actually have a job fair at 
our University that is strictly for individuals with 
disabilities, and they are all employers who are actually 
looking to hire people with disabilities. And again, they do 
not know what the disability is. A lot of it is non-obvious, 
but they know that the people who are coming into that career 
fair actually do have a disability.
    We work with the students on mock interviewing. We actually 
have a company that came in, has started working with our 
students in the last month, coming in and doing mock interviews 
with quite a few of our students to help prepare them for these 
kinds of things.
    We work with them on their resume. We work with our career 
services department at Wright State as well, within the kind of 
employment type opportunities they have. And their job fairs 
and the workshops that they do, so we are not duplicating 
effort, but trying to make sure our students are included in 
those, and that they know that they are welcome to go there.
    They understand when it is appropriate to identify 
disability and it depends very much on what the disability is. 
Sometimes you do not have to identify. That is not an issue and 
we want the students to understand, ``If you do not need 
accommodation, you do not necessarily need to identify your 
disability.'' Having that ability to work with them helps a 
lot.
    We feel in our University that if a student comes in and we 
do not work with them on building those kinds of skills so that 
they can go to work when they leave us, and that includes 
technology, as to what kinds of things they need, we have not 
done our job right if they cannot be able to be hired when they 
leave.
    The Chairman. Senator Casey, something that you wanted? I 
am sorry, Ms. Ostrow, you wanted to add something before I 
call----
    Ms. Ostrow. I would certainly like to applaud efforts by 
the Federal Government and the private sector for initiatives 
to hire people with disabilities. I was encouraged to not 
finish college, so I guess I feel like our day has come because 
if employers want to hire us, then we need to graduate.
    At the same time, I do not think we can emphasize enough 
that there is a lot of heterogeneity between schools and 
between States. I think some of the things you were talking 
about are wonderful, but not available everywhere.
    In the context of disclosing with a psychiatric disability, 
yes, you do not need to disclose to disabled student services 
or faculty if you do not have an accommodation. At the same 
time, institutions of higher education, not just education but 
communities, where you want people to know you, to know who you 
are, and what you are about. And for a lot of people, that is 
identifying to some extent with having a disability, or what 
your story is, or what you bring to the table, again, in this 
context of employment for people with disabilities. But there 
are risks there and you have to know the environment.
    I think it would be great if all of our schools were safe 
for people with disabilities to disclose, to be open about our 
identities and what we can bring. But sadly, that is not the 
case.
    The Chairman. As we continue this discussion, this is all 
good information, keep in mind, what is our role, what is the 
Federal Government's role? What do we need to do in higher 
education?
    In 2008, in that last reauthorization, we put in the TPSID 
program, and then we funded it. I did not know there were 27 of 
the programs out there. Mr. Farrior, you are in one of those 
also.
    In our new reauthorization, what should we be thinking 
about?
    Senator Alexander. And if you could add to that, have you 
run into anything on your campuses that the Federal Government 
is doing that makes it harder for you to provide the kind of 
services and support that you would like to support? This is a 
good time. Sometimes we unintentionally do things like that.
    The Chairman. Did you have something too, Senator Casey?

                       Statement of Senator Casey

    Senator Casey. I do.
    Mr. Chairman, first of all, thank you for having this and 
our Ranking Member, Senator Alexander, we are grateful you have 
convened this. We have a lot of hearings around here that we 
have clocks and time deadlines. Senators love when there is no 
clock. We can go, but it is a much better conversation than we 
often have, and we are grateful for this.
    I missed a good portion of this discussion, probably about 
the first 40 to 45 minutes, so some of what I might ask about 
or what you might speak to will be redundant, and I apologize 
for that.
    But I want to start with Ms. Fink. I just have really, 
maybe for Ms. Fink and Mr. Farrior; is that how you pronounce 
it?
    Mr. Farrior. Yes, sir.
    Senator Casey. Thank you. This is not a very important 
question, but one I have to ask. You played wheelchair 
basketball. How did your team do?
    Ms. Fink. We won two national championships my freshman and 
sophomore year, which was more than the able-bodied team did 
those years. I love my team, but we are struggling a bit.
    Senator Casey. Now, what position did you play?
    Ms. Fink. Small forward.
    Senator Casey. So, did you score a lot?
    Ms. Fink. Not as much as I would like.
    Senator Casey. I like you better now, because that is where 
I always was when I played basketball. I always wanted to score 
more, so we have a real kinship.
    Ms. Fink. Oh, defense wins games.
    Senator Casey. Let me ask you, in your testimony, there was 
one point that you made about SSI. You say,

          ``For me, SSI played a strong role in helping me 
        achieve my educational goals. However, for too many 
        people, it becomes a lifelong parking lot.''

    You may have addressed some of this before. I just want to 
get a better understanding of what you meant by that.
    The Chairman. Can I just interject something? Do not forget 
this question. I thought maybe this was a follow on to that. 
This is a little bit different aspect of that.
    I know some of you wanted to respond to Senator Alexander, 
because his question was, I think, very important. Are there 
things we are doing that hinder the success of colleges in 
terms of supporting students with disabilities? Some of you 
have put up your name tags.
    Ms. Ostrow, you put yours up, then we get to Senator 
Casey's question.
    Senator Casey. Sure.
    The Chairman. Yes.
    Ms. Ostrow. We have lovely laws in this country to protect 
civil rights. Unfortunately, I think, for students, these laws 
have very little teeth. The Americans with Disabilities Act, 
HIPAA, FERPA, are often not, in reality, protected by these 
things, but our privacy is not necessarily protected under 
FERPA or HIPAA whether it is in an educational setting or in 
campus health services. I think, sadly, there is little we can 
actually do about that. Those laws address other problems, 
perhaps.
    I think building stronger self-advocacy and advocacy 
networks for students and families where they can address these 
problems and prevent them would be even better. I know we are 
talking about one bill here, I think, a number of things can be 
done to improve a number of different bills in terms of their 
implementation of protecting students' civil rights.
    The Chairman. Mr. Farrior, yes. Did you have a response to 
Senator Alexander's point?
    Mr. Farrior. Yes, sir.
    To go along with that, I notice with different programs, 
the hard thing is for the comparison of in-state versus out-of-
state tuition. Where we are not allowed, we are not able, 
excuse me, we are not able to apply for certain grants and 
certain funding because of what the criteria are under the 
Federal laws of going to post-secondary programs. So that 
limits students to continue to stay in school and find other 
opportunities.
    So it is more with the financial sustainability to what 
goes along with what can we apply for and what can we not.
    The Chairman. You had a response also, Ms. Myers.
    Ms. Myers. Yes, sir.
    Senator Alexander. Also, Ms. Myers, what percent of 
students have disabilities at your University?
    Ms. Myers. I think it is about 2 percent; 2 or 3 that are 
revealed to us.
    We have students on the campus with disabilities that we do 
not know anything about because of the accessibility that we 
have. A lot of them might be low level, have low-level spinal 
cord injuries, or paraplegia, or they are working with their 
professors themselves. So we have another couple percent that 
are in that category as well.
    Senator Alexander. But the statistics say that 10 percent 
of college students are students with disabilities and only 2 
percent of yours are?
    Ms. Myers. A lot of them do not want to reveal to us. 
Students with learning disabilities, and students with 
psychiatric disabilities, and veterans do not like to reveal to 
people. These are students who do not want to come through our 
door because they have dealt a lot with stigmas in high school, 
and they are very much afraid that they are going to be dealing 
with those same kinds of stigmas when they come to college. 
They do not understand that a college like ours, we are very 
open to students with any type of disability, that we do not 
stigmatize our students and our faculty does not.
    The Chairman. Can I interrupt? Again, you had your placard 
up. Senator Alexander asked a very keen question, and that is, 
are there things that inhibit? There are always paperwork 
burdens and regulations, Mr. Farrior mentioned that.
    Is there something else that you had in mind that maybe 
hinder or put undue burdens on colleges who really want to 
recruit and support students with disabilities?
    Ms. Myers. Students who have Medicaid waivers who want to 
come from a different State have a very difficult time getting 
that transferred from one State to another, and their State 
might not support them in another State with their waiver.
    Students on SSI are very concerned that if they actually 
take an internship, are they going to lose their SSI money? We 
have to make sure that the waivers are low enough that that is 
not a risk. That is really not fair to the students.
    Students who get vocational rehabilitation support, the 
instant their GPA goes below a 2.0, they do not have support in 
college. Other students can fail, and then come back, and not 
be penalized for it. Yet a student with a disability runs the 
risk of being penalized if they are a student, first, unlike 
their peers. They have to do a level of work higher than other 
students to be able to maintain their supports, which is 
something that really is difficult for the student, and they 
are constantly worried about, ``Am I going to lose my support 
if I do not do well in a class?''
    Senator Casey. Can I just ask? How do we best rectify that?
    The Chairman. Yes, you were getting onto that point with 
your question.
    Ms. Myers. Well, I think in the two areas with SSI for them 
to recognize that internships are important for students to be 
able to eventually gain employment and not be on SSI anymore. 
And they are doing a summer internship, they should not be 
pulling their support just because they have made a little bit 
above what they should, what they need to. So that needs to be 
something recognized by SSI.
    With voc rehab, there should not be a ``one strike and I am 
not supporting you anymore'' in college. They will support them 
for other things, but not college. So voc rehab needs to 
understand these young people, 18-, 19-, 20-year-olds are young 
people and they struggle like other students. They have classes 
they do well in; they have classes they do not. And to have 
this one strike ruling that, ``I am not going to support you in 
college,'' really needs to be changed.
    The Chairman. Obviously, if you are on SSDI, the law has 
been so since 1959 or something, we encourage people to work 
who are on SSDI. It is a fallacy, a lot of people do not know; 
they think if you get SSDI, you should not work at all. Right 
now, you can earn up to $1,070 a month. You can earn up to 
$1,070 a month and still get SSDI.
    Well, I can see that if you have a college student who is 
on SSDI, who maybe goes out and gets a summer job, makes more 
than $1,070 a month, they get cut off of that even though they 
are not making a lot of money for the year.
    Ms. Myers. Right.
    The Chairman. They are making just a couple of months of 
summer work, and they get cut off of SSDI. So is that a 
problem? Is that what you are talking about?
    Ms. Myers. Yes, I am, and they are not on SSDI. They are on 
SSI usually because they have not worked before. The SSDI is 
for people who have actually worked previously.
    The Chairman. They have worked before, that is right.
    Ms. Myers. So these are students who come in on SSI, which 
is for students with disabilities, people with disabilities who 
have never worked.
    The Chairman. They never paid into the system.
    Ms. Myers. Right. They have not paid into the system. They 
get lower amounts of money for support in the first place, and 
they are at great risk for having that pulled if they make over 
that in 1 month. It is not something that is looked at on an 
annual basis; it is looked at on a monthly basis.
    The Chairman. A monthly basis. See, that is a problem. I 
have not thought about that. It is interesting.
    Did you want to re-state again?
    Senator Casey. No, I just want to make sure that Ms. Fink, 
the answer to the question, is that?
    Ms. Fink. I am going to attempt to answer both your 
question and Senator Alexander's question at one time.
    Senator Casey. OK.
    Ms. Fink. I think they do kind of combine together in my 
experience.
    I think as I mentioned in my opening statement, I received 
a wheelchair basketball scholarship to the University of 
Illinois, which supplemented by some academic scholarships as 
well as some hard-fought voc rehab support, which I will get to 
in just a minute. It made my education marginally cost-free. So 
this was a massive financial burden lifted from my family, but 
of course had other costs, living expenses, very specific 
healthcare costs that necessitated I establish eligibility for 
Social Security, for SSI; I am sorry, Supplemental Security 
Income and Medicaid which went along with that. And that 
provided me with my necessary healthcare coverage throughout 
school, as well as somewhat of an extra income to support me 
beyond that point. But it also simultaneously limited my assets 
to $2,000; limited my access to $2,000 per month with SSI in 
order to maintain my Medicaid and my SSI there.
    So our programs that are in place like Ticket to Work and 
PASS Plan, that are trying to alleviate some of these issues 
are not quite hitting the nail right yet.
    The Chairman. Dana, let me ask you a question.
    Ms. Fink. Yes.
    The Chairman. That $2,000 that varies by State, does it 
not?
    Ms. Fink. It does and that actually creates some of the 
issues. Switching, I went to school, I am originally from 
Georgia and then I went to school in Illinois, and had to 
switch beyond that point, and then I came here to do an 
internship in Washington, DC. That created other issues where I 
could lose my healthcare coverage just for doing an internship 
here, and then I studied abroad, and there were different State 
by State regulations about where I could lose my Medicaid and 
lose my SSI in that respect as well. And it is so complex each 
State. We could have an entire hearing on what some of these 
issues are with SSI.
    To answer Senator Alexander's question about some of the 
Federal Government institutional barriers, I would definitely 
echo what some folks have said about voc rehab. Me and my 
family, we really believe in early transitions. So when I was 
in high school, as soon as I could, I enrolled in the Georgia 
Vocational Rehabilitation Services. This is a pretty good 
story, so I will tell it as quickly as I can, but I think 
everyone will enjoy this.
    I was assigned a VR counselor and they asked me what I 
wanted to do when I grew up which, at the time, I wanted to be 
a journalist. And I told him that and he said that I would not 
be a candidate for services because of that specific career 
choice. He then gave an example if I wanted to be a piano 
teacher and I was missing an arm, then voc rehab could support 
me by providing me with a prosthetic arm. At which point my 
mother said, ``Well, what if she wanted to be a tap dancer?'' 
And he said, ``Yes, then you would be a candidate for 
services.'' Which is just unbelievable, and it is not what 
those supports are trying to do. It is not what they should be 
doing. There is such a lack of knowledge. We, at the time, also 
did not know that I could seek recourse in these instances.
    There is the Client Assistance Program which can support 
you if you need, if you are having issues with your voc rehab. 
I had to go to court and petition to get a new counselor. I got 
a new counselor, and then there were issues when I said I 
wanted to go to the University of Illinois, and they were 
supposed to pay for me what I would have received to go to an 
in-state school at the out-of-state school, and they refused to 
do that. Because at Georgia, there is the HOPE Scholarship 
which, if you have a 3.0 GPA, you largely get tuition free and 
so, they were supposed to provide equivalent services at 
Illinois, and they wanted to penalize me for that even though 
it was a merit-based scholarship. And then at that point, my 
family would have been responsible for that cost burden.
    The Chairman. Ms. Emrey-Arras, did you have any comments on 
what Senator Casey asked?
    Ms. Emrey-Arras. Yes. In terms of what we can do about 
this, I think, at GAO, we have reported on the lack of 
coordination across Federal agencies, and I think some of these 
issues have come up just now in terms of eligibility criteria 
being different and the like.
    We have made a recommendation for a single, formal, 
Governmentwide strategy specifically focused on the transition 
for students with disabilities. Not only to colleges, but also 
to the labor force, and we have made that recommendation to the 
Departments of Education, Health and Human Services, Labor, and 
the Social Security Administration. And that recommendation is 
still open. So that has not happened as of yet, but we think it 
is a critical one.
    Senator Casey. Mr. Farrior, I know you were going to say 
something, but let me just ask, and I will be done with this. I 
know we have others who are waiting.
    As someone who was diagnosed with Asperger's, I guess you 
were in eighth grade at the time?
    Mr. Farrior. Yes. Yes, sir.
    Senator Casey. So you were getting, moving closer to 
adulthood. And when you consider your own experience now in 
higher education, and you may have already answered this in 
light of what Senator Alexander asked, but if you had to line 
up one, two, three, even one or two things you hope we would do 
to make your experience better if you had to be doing it all 
over again, what would those one or two things be?
    Mr. Farrior. The first thing to go along with what Ms. 
Myers said and Ms. Getzel, is to have the support system in the 
public school as well as private schools to bringing attention 
to students like, ``OK. This is what you have. How can we help 
you?'' Because when I was going through different school 
systems, I did not even know about Asperger's. It took me, like 
I said, to about age 14 just to understand what I had to 
transition to.
    So to go along with that, I met a third grader parents 
whose actually said to him, ``Do not tell them. Do not tell 
them you have Asperger's.'' But he gave a whole presentation 
about this to his classmates, and to students, and peers, and 
teachers to actually understand to help him better succeed. So 
it needs to go along once you find, once a student is actually 
found out that they have it, they should find ways in the 
school system to be able to help them succeed.
    In sixth grade, I was turned down because I got diagnosed--
actually in Washington, but each State is different. I was 
actually denied because I actually got tested in Washington, 
but I was supposed to be tested in South Carolina and they do 
not take out-of-state testing. So they should be actually 
reasonable to figure out what accommodations they can make from 
different States because not every psychiatrist is going to 
find the proper diagnosis for that individual.
    Along with the point you are asking, how we can make a 
difference is just basically like I said before. Really 
advocate for the students along the way, going along with 
Senator Alexander, is that finding out what is eligible because 
of what Ms. Myers said. I actually talked to other students, 
traditional students that have lost their life scholarship that 
freshman year because of playing around.
    I lost my scholarship when I was at Trident because I 
actually went down from a 3.5 to a 1.5 to where an individual 
asked, ``How can you get a 3.5 and need all this accommodation? 
That does not make sense.'' Basically, the statement was that I 
was actually incompetent, so it is just actually having the 
assistance to succeed.
    Senator Casey. Thank you.
    The Chairman. Senator Murray, did you have something to 
say?

                      Statement of Senator Murray

    Senator Murray. Mr. Chairman, thank you.
    Thank you to all of our panelists. I had an opportunity to 
listen to some of this while I was in my office, but this is 
really a great discussion. I really appreciate all of your 
courage in coming forward, especially the students that are 
here as well. I had one general question.
    For a lot of individuals including many of our newly 
acquired disability veteran students, they have challenges 
related to documentation. And I wondered if any of the students 
could comment on that challenge, and what we need to be looking 
at.
    Ms. Ostrow. For certain disability categories, I sense that 
it is a lot easier than for others. If you have a physical 
disability or a sensory disability, documentation may not even 
be required in some instances by certain disability services 
offices.
    For those of us with psychiatric or learning disabilities, 
it is a much more complex process. I am told that I have 
bipolar disorder. To my knowledge, there is no test for having 
bipolar disorder. So what documentation should I produce to get 
accommodation? Even if I understand perfectly what it is, but I 
need it in terms of accommodations.
    I think another problem is that you are required to be 
involved with mental health providers in order to get 
accommodation. You are seeking accommodations in education or 
work, not within the mental health system.
    In addition to that, accessing those services is, in 
itself, a barrier. You are talking about weeks or months where 
you are waiting to meet with a mental health provider in order 
to get documentation, and then after that provided to disabled 
student services so that their ADA compliance office can 
approve it. And then from there, have them contact faculty to 
assemble the accommodations. I mean, we are talking several 
weeks into a semester where you have already missed a mid-term 
or several assignments before anything even happens.
    Senator Murray. Mr. Farrior.
    Mr. Farrior. Can you repeat the question?
    Senator Murray. I wanted to know what your challenges or 
challenges that you know about in terms of documentation.
    Mr. Farrior. Documentation for myself, for others--and it 
is different for each individual--has been finding out, going 
back to past testing to different States to where you can, what 
States are going to offer what testing. As well as finding out 
what they need.
    For example, I actually needed a small class size, along 
with authorization to take my test outside of the classroom. 
And you really have to wait until you're actually accepted by 
the college, to my knowledge, to start the process.
    Senator Murray. Ms. Fink, you wanted to comment?
    Ms. Fink. I think this goes back to the issues of students 
not knowing how their rights change when they go from being 
covered under IDEA to then ADA in higher education.
    I have had my physical disability since birth and had done 
quite a lot of advocacy and self-advocacy for myself and for 
others, and been so proud to be a person with a disability 
throughout this whole process. And then I got hit sophomore 
year of college with mental health concerns and I had no idea 
what to do with this. I did not have an understanding of what 
disability disclosure even was because I usually, I walk into a 
room and people know what my disability is. I do not have to 
disclose necessarily. That can be a challenging process for 
students with invisible disabilities to know what specifically 
they do have to disclose in order to get accommodation.
    And then it also goes back to the issue of paperwork, 
needed paperwork focusing more on the diagnosis rather than 
what the needs and the accommodations are. So, I mean, we talk 
about what are the strengths, and dreams, and everything that 
we have for ourselves. The accommodation should be, focus on 
what are the strengths and how do we get to those dreams rather 
than, ``This is a person who has bipolar disorder, who has 
Asperger's, and these are the things that people with bipolar 
disorder and people with Asperger's need.'' It is not that one-
size-fits-all approach, which is what tends to happen when we 
are submitting this paperwork to higher education institutions.
    Senator Murray. Ms. Getzel, you wanted to comment.
    Ms. Getzel. Yes. Documentation issues are a very long-term 
issue for students with disabilities, and part of that is that 
transition into higher education where they are under different 
laws.
    I think that even within a State or even within a college 
that could be 10 miles apart from each other, each institution 
has a different way of interpreting and what they require for 
documentation. So that makes a family and students really have 
to understand what that process is, what needs to be involved, 
and that can be very time consuming.
    It is also a financial barrier for many students, 
especially students who come from various economic backgrounds 
who may not be able to--it is very expensive to get the testing 
necessary.
    Another issue is that many students who have been coming 
through the secondary education system have had all kinds of 
tests and work around what their disability is, what 
accommodations, and that kind of thing. And yet, we have many 
institutions of higher education that will not look at or 
accept that type of documentation like an IEP or a summary of 
performance. So that is also difficult.
    Why would someone who has had a long occurring disability 
all of a sudden need to get retesting? It is that whole adult 
norms and those types of issues that are brought up.
    I do have to say, though, that the Association on Higher 
Education and Disability has really been trying to work on this 
a great deal, and we are seeing somewhat of a shift, not all 
colleges and universities, it varies widely. But some are not 
asking for the documentation as the first thing out the gate. 
They talk with the student, ``What accommodations did you use? 
How do you learn best?'' that kind of thing.
    As they go on further, they then work on what 
accommodations are provided at the college, which brings it 
more to a discussion, more of students coming and saying, 
``This is what I need. This is how I learn best,'' which is so 
important from elementary school or preschool on up that 
students with disabilities really understand that.
    With acquired disabilities, we have worked with students--
in the middle of their situation in college, a number of 
times--we have worked with students in the middle of their 
internship, they receive a diagnosis, and now they are on the 
clock because they have to finish their internship or go to 
graduation, and that kind of thing. And that can be very 
stressful for students. So there is sometimes very little 
leeway for students with acquired disabilities or that have not 
been diagnosed previously in terms of what systems they do use.
    With veterans, we work with veterans with PTSD, and 
traumatic brain injury, and spinal cord injury. And there are 
so many competing responsibilities that these individuals have 
coming into college that even the transition to college is 
difficult, and coming into what they need to be doing. And then 
what stigma do they feel in terms of letting their unit down by 
acknowledging that they have a disability. There is a whole 
realm of issues that are very specific to veterans as well in 
higher education.
    The Chairman. Ms. Myers, do you want to comment?
    Ms. Myers. You had mentioned veterans and Ms. Getzel 
mentioned veterans. At Wright State, we have a large group of 
veterans on the campus because we have a very large VA hospital 
in our area, and we are also adjacent to Wright Patterson Air 
Force Base. So a lot of veterans do come to our area.
    One of the problems that they have, though, is getting 
their documentation from the VA. It is, and I really hate to 
say it this way, but it is a very convoluted system for them. 
We have a veteran we have been working with recently who, I 
have told his voc rehab counselor, I do not even need to know 
his diagnosis. I just want his limitations. I need to know 
because what he has presented to us does not give us any kind 
of long-term disability information.
    Senator Murray. Because he does not have a rating from the 
VA?
    Ms. Myers. He has a rating from the VA. We know he has a 
disability and we have told them, ``We are not questioning 
that.'' So that we know best how to help this student, we need 
to know what his actual limitations are.
    Senator Murray. So the VA is not giving you that?
    Ms. Myers. No, they have not. And for the student to try to 
get this information because they have changed his doctor, so 
that takes time. And getting back to his counselor takes time, 
even by e-mailing the counselor sometimes you do not get 
responses back. So the VA does not make it easy at all for our 
veterans to be able to go to college and be successful.
    This is also a hard group to reach out to because they do 
not want to admit they need any assistance. OK. So they finally 
get to that point where they are, ``OK. I need some help. I 
really do. I have got to get some help from disability 
services,'' and then the VA is not helping them to get anything 
that will help us to provide their accommodations.
    Now, we have gone ahead in this particular case, and we are 
providing him with a private room to take his test in because 
that is one of the big things that he really needed. That is 
not a big deal. We will go ahead and do that, while we wait to 
get everything else on him.
    Senator Murray. Yes.
    Ms. Myers. But they do not make it easy.
    The Chairman. Interesting. Ms. Ostrow.
    Ms. Ostrow. In addition to being in the 22d grade, I have 
also had a number of jobs throughout my life, and never a 
single job, have I been asked to produce any written 
documentation from anyone requesting an accommodation for a 
disability. The fact that when you go to college, or to 
graduate school, you have to have these packets of diagnoses 
and testing from a professional does not make that much sense.
    The other thing that I would like to say is that for people 
with psychiatric disabilities, I think there is a real lack of 
education and awareness on the part of disabled student 
services in some places where students with psychiatric 
disabilities that are not learning disabilities, are kind of 
shoehorned into those kinds of accommodations because that is 
what the disabled student services are familiar with, and then 
these are very different problems that people have.
    I believe it was Senator Harkin who mentioned the episodic 
nature of psychiatric disabilities. So like a persistent 
accommodation may not make that much sense. At the same time, 
you might need a lot more supports during certain periods of 
time, and those periods of time tend to be times when people 
are experiencing stress or life events where it may be 
particularly difficult to achieve those things.
    The Chairman. Senator Warren, did you have something you 
wanted to jump in on here?

                      Statement of Senator Warren

    Senator Warren. I do. Thank you very much, Mr. Chairman and 
thank you, Ranking Member.
    I apologize for coming in late. I am going to have to 
leave. We are in the middle of a banking hearing in another 
room. But I want to thank you for your leadership and all that 
you have done to expand access for people with disabilities. 
Before I ended up in law school, I was a special needs teacher 
in public school. So that is where I started my life and this 
is really important.
    We have made a lot of progress, because I was in this field 
a very long time ago, and a lot of progress has been made in 
terms of access. But I wanted to talk just a little bit today 
about materials, just wanted to focus on that part, and I am 
seeing people nod already on this. The changes in technology 
have created such incredible opportunities now to expand 
access, but opportunities does not always mean that is, in 
fact, what is happening.
    In fact, there was a 2011 Federal commission that reported 
that colleges were adopting technologies that are not 
accessible and that this is creating additional problems.
    So the question I wanted to start with, and I thought maybe 
you would be the right person for this, Ms. Myers, is why some 
colleges are failing to offer accessible materials even though 
this is what the law requires? Ms. Myers or anyone else who 
wants to, but I thought Ms. Myers.
    Ms. Myers. Well, I think one of the difficulties is we have 
colleges, and this happens at Wright State, and it puts a 
responsibility on our technology center to be able to take what 
they have adopted and get it into an accessible format.
    But colleges, because of technology, are adopting more and 
more electronic textbooks. One of the problems with those 
textbooks is they are typically created in more of an image or 
graphical environment than a text environment. OK. That is not 
an accessible environment if you are using a screen reader or 
any kind of talking technology. So those, then, have to be 
turned into something that is accessible, and that is not easy 
to do.
    The publishers are not being pushed enough to make sure 
that what they are creating in those electronic environments 
is, indeed, accessible. Even putting on the disks for the 
download, accessible version would make things a whole lot 
easier for the students. It is really hard for them when they 
go and they purchase that, they download it, and they cannot 
use it. OK. And I think that is one of the big problems.
    The faculty members are also not being pushed to check out 
accessibility before they adopt to make sure that what they are 
adopting is, indeed, accessible particularly if they are using 
something electronic, or if they are using some kind of 
software program within their teaching as well, to make sure 
that that is going to be accessible. But I think there is a 
two-way street here: faculty making sure that what they are 
adopting is accessible, but publishers making sure that what 
they are putting out there is accessible.
    The burden of responsibility falls onto--has in the past 
and continues, in our opinion--to fall on the university to 
make sure that the students have the materials that they need 
to be able to be successful in college. So that responsibility 
falls on us to make sure that what we are giving them is 
accessible. But the publishers are not helping and sometimes 
the faculty are not either.
    Senator Warren. Good. And I thought maybe I could ask, what 
are the universities and the schools doing to push. But Ms. 
Getzel, could you add to this please?
    Ms. Getzel. Yes. It is a very big difficulty, especially 
with publishers. I know that in work that we have been doing in 
working with the disability support service office, working 
with students, that it is either very long to get it or they 
tell us it is not available, and it is very difficult.
    What we would like to see more on sort of the publisher end 
now with the technology, it is almost like all this technology 
is happening, but in one sector, we cannot seem to get that 
opened up. And I know that there are certain regulations or 
policies and that kind of thing, especially with publishers.
    I know that in Virginia, at one point, they started almost 
like a lending library among the universities who had 
accessible materials that they could then use, if you belonged 
to this consortium, then you would have access to some of that 
to relieve some of the costs, as well as some of the waiting 
time. And again, faculty do need to be very aware of this, and 
sometimes books or what coursework is put up in a short amount 
of time, which then the disability support services offices are 
scrambling to try to get that.
    I know that the universities, at least at VCU, is really 
trying to adhere very carefully to that and always we get 
things at the beginning or the end of the semester to alert 
faculty to be aware of these type of things. But it really is a 
difficulty.
    Senator Warren. Yes. Ms. Myers.
    Ms. Myers. We did some of the lending in Ohio. We 
established within our consortium, we are members of the 
Southwest Ohio Consortium on Higher Education and we created a 
lending library.
    One of the problems that we had is a problem we have within 
our own University, which is, we can have two economics 
professors who do not adopt the same books. And when you have 
that issue within your own university, having other schools 
adopting the same thing, when there are no standards created by 
the State saying, ``All history teachers have to use this.'' 
Or, you know, ``Within a university, all economics professors 
have to do this. All sociology professors have to do this,'' 
which takes away their academic freedom. That is another part 
of the problem.
    We do get calls from other schools asking them, well, if we 
have done a book to help them out, which we will share. We have 
done this for quite a while. The only problem is most of the 
time, it is not something that we have because of that freedom 
that the faculty has.
    We do use a clearinghouse called AccessText and we can get 
about 60 percent of our materials from them. They do not 
include the small publishers in that process. It is typically 
the large publishers, but there are also files that we cannot 
just hand over to a student. We have to take them. A lot of 
times, it is one file for the whole book, which means we have 
to break it up into portions that the students can use. And 
sometimes page numbers are missing or there is all this missing 
information so we still have to work on the file before we can 
hand it over.
    Senator Warren. I very much appreciate your comments on 
this and they are very valuable. I think that accessible 
materials are critical. We already have laws about 
requirements, and clearly they are not being met.
    Today, Senator Hatch and I are introducing legislation to 
establish guidelines to ask an independent agency to develop 
guidelines so that we will have some guidelines for what kinds 
of accessible materials we need. We are hopeful that what this 
means is that colleges will be able to meet their legal 
requirements if guidelines are out there. And that we will be 
able to develop a market for these materials so that the 
publishers, as you rightly say, Ms. Myers, receive some 
encouragement to make sure that they have consistently 
available materials and that we will be able to do more. It is 
not enough to say to our students, ``We are trying to make 
college accessible, but when you get here, you are not going to 
be able to deal with the material.''
    I just want to say this bill has strong support from the 
disability community and on behalf of Senator Hatch, I wanted 
to come here today to hear from you about it, and be able to 
mention it. And again, I apologize. I am in a banking hearing 
and I am going to have to go back to that. But thank you for 
the work you are all doing and thank you for all you have done.
    Thank you, Mr. Chairman. I appreciate it.
    The Chairman. Thank you, Senator Warren.
    I was just informed by my counsel that, and I met this 
group before, Bookshare has a Department of Education grant to 
provide textbooks in different formats. But I was just informed 
that one of the largest publishers of textbooks, Pearson, does 
not allow that. I do not know why. We will have to look into 
that. It has to do with the copyright, I guess, and things like 
that, but some publishers do, do that. So it is sort of a 
little mixture of this and a little mixture of that.
    I think that is maybe something we ought to look at too in 
terms of our reauthorization of our Higher Education because we 
put the money into TPSID. They are doing well, but if young 
people like Mr. Farrior and who else was involved with TPSID--
--
    Ms. Getzel. I am.
    The Chairman. Yes, Ms. Getzel. But if you cannot get the 
textbooks in a format that is accessible then that limits what 
we are doing in that program, in the TPSID program. So I think 
we are going to have to look at this textbook thing.
    We are running out of time, but Ms. Fink, we will close 
this down, but Ms. Fink, you had one last thing.
    Ms. Fink. I just wanted to caution that accessible 
materials are not limited to accessible textbooks.
    The Chairman. Say that again?
    Ms. Fink. I just wanted to caution that accessible 
materials are not to be limited to accessible textbooks. When I 
was in school 4 years ago, half of my reading was done through 
Noodle or through a system like that where a teacher would 
upload a couple of PDF's, and then you have to read it by the 
next day, and that is not enough time if that format is not 
accessible, and there needs to be some sort of regulations 
about those materials going onto those online platforms as 
well.
    The Chairman. Good point, good point.
    This has been a great discussion; just a nice, open format 
of discussion. I think we have covered a lot of the points.
    Again, I would just let you know that there are a lot of 
barriers facing students with disabilities in getting a higher 
education; it runs the gamut with all the things that we have 
talked about here this morning. I am not saying that we can 
solve all that in the Higher Education bill, and probably not, 
but there are certain things that we are going to have to look 
at and address, and I think you have given us some thoughts 
this morning on what we can do to help try to remove some of 
those barriers.
    I would just ask, as we proceed, that you keep in contact 
with this committee and with our staff, and give us the benefit 
of your thoughts as we move forward on the reauthorization. I 
would sure appreciate it.
    I think there are a lot of things that we can do to make 
sure that we have equal access, good transitions, effective 
recruitment, making sure that kids who are in IDEA who have an 
IEP know what they have and how colleges are able to take that 
and move that into the college setting, support services, and 
overcoming a kind of an attitudinal barrier that exists in a 
lot of schools.
    Let us face it, when you talk about higher education being 
accessible for kids with disabilities, the first thing that 
pops into their minds is, ``Oh, well, we must have ramps and 
widen doors.'' It is physical. They think about the physical 
disability, but as you point out, Ms. Fink, sometimes people 
have more than just a physical disability, they have other 
disabilities too, right, Ms. Ostrow? They have intellectual, 
psychiatric disabilities that need to be accommodated also.
    So they need to start thinking along those lines. 
Obviously, Wright State has done that in many ways, maybe the 
University of Illinois too, but I do not think that this is 
very widespread. In other words, thinking about accommodations 
and accessibility for nonphysical disabilities that students 
have. So I think we kind of have to focus on that too.
    I look forward to working with members of this committee to 
craft the policies that will aid youth to access higher 
education. If there are certain paperwork things that are in 
place that are keeping colleges from offering supports, we 
ought to look at that too.
    SSI, as I said to Senator Alexander that is sort of not in 
our bailiwick; that is the finance committee. But maybe we 
could work with them to provide some kind of crossing State 
borders when you are a bona fide student and you are going from 
one school to another that some kind of solution for a student 
during their college years when they are working on a summer 
job or something like that where they might go over the monthly 
limit. They need that money for going to school. Also, we need 
to address the SSI limits of only $2,000 in assets, if I am not 
mistaken, something like that. If you earn a little bit more 
than that and you have that in the bank, you are cut off from 
benefits. They will cut you off your Medicaid on SSI. But like 
I said, that is not in our jurisdiction, but something maybe we 
could work with the finance committee on.
    I thank you all. Some of you came a great distance. I 
appreciate it. Thank you. You have given us great insights. 
Thank you for your leadership in this area.
    We will leave the record open for 10 days to allow 
additional statements or supplements to be submitted for the 
record.
    And the hearing will be adjourned. Thank you very much.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]

                                   [all]

      
</pre></body></html>
